<html>
<title> - HOMELESS IN AMERICA: EXAMINING THE CRISIS AND SOLUTIONS TO END HOMELESSNESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                     HOMELESS IN AMERICA: EXAMINING

                      THE CRISIS AND SOLUTIONS TO

                            END HOMELESSNESS

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                            Serial No. 116-1
                            
                            
                            
                            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
 
 
                            
                            
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-630 PDF                WASHINGTON : 2019                       

                            

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             PETER T. KING, New York
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
WM. LACY CLAY, Missouri              BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            SEAN P. DUFFY, Wisconsin
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANN WAGNER, Missouri
BILL FOSTER, Illinois                ANDY BARR, Kentucky
JOYCE BEATTY, Ohio                   SCOTT TIPTON, Colorado
DENNY HECK, Washington               ROGER WILLIAMS, Texas
JUAN VARGAS, California              FRENCH HILL, Arkansas
JOSH GOTTHEIMER, New Jersey          TOM EMMER, Minnesota
VICENTE GONZALEZ, Texas              LEE M. ZELDIN, New York
AL LAWSON, Florida                   BARRY LOUDERMILK, Georgia
MICHAEL SAN NICOLAS, Guam            ALEXANDER X. MOONEY, West Virginia
RASHIDA TLAIB, Michigan              WARREN DAVIDSON, Ohio
KATIE PORTER, California             TED BUDD, North Carolina
CINDY AXNE, Iowa                     DAVID KUSTOFF, Tennessee
SEAN CASTEN, Illinois                TREY HOLLINGSWORTH, Indiana
AYANNA PRESSLEY, Massachusetts       ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JOHN ROSE, Tennessee
ALEXANDRIA OCASIO-CORTEZ, New York   BRYAN STEIL, Wisconsin
JENNIFER WEXTON, Virginia            LANCE GOODEN, Texas
STEPHEN F. LYNCH, Massachusetts      DENVER RIGGLEMAN, Virginia
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    February 13, 2019............................................     1
Appendix:
    February 13, 2019............................................    65

                               WITNESSES
                      Wednesday, February 13, 2019

Darley, Carolyn, Speaker Advocate, National Coalition for the 
  Homeless.......................................................     4
Lucas, David S., Postdoctoral Research Fellow, Institute for an 
  Entrepreneurial Society, Whitman School of Management, Syracuse 
  University.....................................................     6
Oliva, Ann Marie, Senior Policy Advisor, Corporation for 
  Supportive Housing (CSH).......................................     9
Roman, Nan, President and CEO, National Alliance to End 
  Homelessness...................................................     8
Rush, Justin T., Public Policy Director, True Colors Fund........    11
Stewart, Joshua, Director of Policy, National Coalition for 
  Homeless Veterans (NCHV).......................................    13

                                APPENDIX

Prepared statements:
    Lucas, David S...............................................    66
    Oliva, Ann Marie.............................................    71
    Roman, Nan...................................................    75
    Rush, Justin T...............................................    81
    Stewart, Joshua..............................................    85

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Statement of Steve PonTell, President & CEO, National 
      Community Renaissance (National CORE)......................    97
    Statement of Maria Foscarinis, Founder and Executive 
      Director, National Law Center on Homelessness & Poverty....   102
Garcia, Hon. Jesus ``Chuy'':
    Statement of the Chicago Coalition for the Homeless..........   108
Posey, Hon. Bill:
    HUD publication entitled, ``Regulatory Barriers and 
      Affordable Housing,'' dated Spring 2018....................   112
    Written responses to questions for the record submitted to 
      Nan Roman..................................................   136
    Written responses to questions for the record submitted to 
      Joshua Stewart.............................................   145


                     HOMELESS IN AMERICA: EXAMINING
                      THE CRISIS AND SOLUTIONS TO
                            END HOMELESSNESS

                              ----------                              


                      Wednesday, February 13, 2019

             U.S. House of Representatives,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the committee] presiding.
    Members present: Representatives Waters, Maloney, 
Velazquez, Sherman, Clay, Scott, Green, Cleaver, Himes, Foster, 
Beatty, Heck, Vargas, Gottheimer, Gonzalez of Texas, Lawson, 
San Nicolas, Tlaib, Porter, Axne, Casten, Pressley, McAdams, 
Ocasio-Cortez, Wexton, Lynch, Gabbard, Adams, Dean, Garcia of 
Illinois, Garcia of Texas, Phillips; McHenry, Wagner, Posey, 
Luetkemeyer, Huizenga, Duffy, Stivers, Barr, Tipton, Williams, 
Hill, Emmer, Zeldin, Davidson, Budd, Kustoff, Gonzalez of Ohio, 
Rose, Steil, Gooden, and Riggleman.
    Chairwoman Waters. The Committee on Financial Services will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    Today's hearing is entitled, ``Homeless in America: 
Examining the Crisis and Solutions to End Homelessness.''
    I now recognize myself for 3 minutes to give an opening 
statement.
    Today, this committee convenes for its first hearing of the 
116th Congress. This hearing is on an extremely important 
subject: the national homelessness crisis. Today, there are 
over a half million people experiencing homelessness 
nationwide, and nearly 160,000 of them are children, and nearly 
38,000 are veterans whom we have failed to support after their 
service to our Nation.
    The number of people experiencing chronic homelessness 
nationwide increased between 2017 and 2018. In Los Angeles 
County, there are over 50,000 people experiencing homelessness, 
nearly 5,000 of whom are children and over 3,800 of whom are 
veterans. In the richest country in the world, it is simply 
unacceptable that we have people living in the streets. This is 
a crisis that requires action.
    I had my staff look at this committee's hearing records, 
and it appears that this is the very first time that the Full 
Committee has convened a hearing focused entirely on 
homelessness. So it is long overdue for this committee to turn 
its attention to this crisis and consider proactive solutions 
to ensure that every American has a safe, affordable place to 
call home. This is a top priority for me as chairwoman.
    We need Congress to have the political courage to step up 
and provide the resources and funding necessary to end 
homelessness. And the first step is to put forth proposals to 
address the problem and have a discussion.
    My bill, the Ending Homelessness Act, provides $13.27 
billion in new funding over 5 years to Federal programs and 
initiatives to prevent homelessness. It includes funding for 
new units of affordable housing, new vouchers, case management, 
and technical assistance.
    Today at this hearing, we will hear directly from experts 
and advocates regarding the continuing challenges in tackling 
homelessness in America and their recommendations on solutions.
    Before I yield to the ranking member, I would like to just 
take a moment to note the presence of Representative Katie 
Hill, the former executive director of the largest nonprofit in 
California that advocates for people experiencing homelessness. 
She also served on the governing and oversight body for the Los 
Angeles Continuum of Care, overseeing the use of Federal 
homeless assistance funding, and she was instrumental in recent 
initiatives that will provide substantial new State and local 
funding to address homelessness in Los Angeles.
    The Chair now recognizes the ranking member of the 
committee, the gentleman from North Carolina, Mr. McHenry, for 
4 minutes for an opening statement.
    Mr. McHenry. I want to thank Chairwoman Waters for hosting 
and bringing us together to talk about a really important issue 
for our country, for my home State of North Carolina, and for, 
I think, everyone's districts represented here on this 
committee. And so I do think it is important that we highlight 
the need for a more concerted effort to combat homelessness.
    According to the most recent data in 2018 that Chairwoman 
Waters highlighted from HUD, 552,830 of our fellow Americans 
are homeless. Of that, nearly 10,000 are from my home State. 
Every State is touched, every community is touched by this.
    And while this represents a significant decrease since the 
first homelessness count in 2005--that count was 754,000--there 
is a dramatic reduction in homelessness from the initial count. 
But, still, until we solve this problem, one is too many.
    I also want to highlight another subset of that large 
group: 194,487. That number represents the total number of 
people who are also unsheltered, meaning they are living in 
vehicles, tents, other makeshift dwellings, and in a variety of 
different places.
    And so, I am very interested to hear the testimony, not 
just on the problem, but on the solutions, what we can do as 
Federal policymakers, in concert with State and local 
officials, to make sure that we have a proper response in 
dealing with this challenge.
    There are also other demographic groups in that: the 
chronically homeless because of alcohol or drug addiction or 
mental illness; the victims of domestic violence who need a 
safe haven; the veterans who are down on their luck after 
serving our country; working families who cannot afford to live 
in the communities where they work; and the youth, whether 
those not living with families or those who have recently 
graduated and are trying to find shelter.
    And so today, I hope that this will be the first of a 
number of robust discussion on this issue where we can review 
all the programs under the Department of Housing and Urban 
Development and across our government as much as we can to 
determine if they are effective in addressing the homelessness 
challenge that we face across our Nation.
    Additionally, we should explore new initiatives to engage 
the Federal, State, local, nonprofit, and private market 
shareholders to develop holistic approaches that understand the 
humanity that is at risk here, the people and the challenges 
they face, including eliminating State and local barriers to 
affordable housing and increasing the supply of affordable 
housing. And where appropriate, we should explore how to allow 
localities the flexibility to tailor specific solutions to 
address concerns that may not fit a Federal one-size-fits-all 
approach.
    I look forward to the testimony and the questions today. 
And with that, I yield back.
    Chairwoman Waters. Thank you very much.
    I will now recognize the subcommittee ranking member, Mr. 
Duffy, for 1 minute.
    Mr. Duffy. Thank you, Madam Chairwoman. It is good to see 
you.
    Welcome, panel. I think this is a great hearing. As the 
chairwoman knows, and Mr. Cleaver knows, we have spent a lot of 
time working on homelessness, specifically rural homelessness. 
And I think we have to have a broader conversation about what 
programs work and what programs don't work as well and where do 
we streamline resources into the programs that help the most 
people. How much money do we spend to eradicate homelessness?
    And I am proud that this committee has worked well 
together. Maybe not on everything, but on homelessness, we 
actually did work well together. We passed the Family Self-
Sufficiency Act. We did the Housing Choice Voucher Program. We 
did a lot of work trying to help those young people who are 
foster children, who have a high propensity of becoming 
homeless. How do we direct them into housing so they don't 
start their adult lives off homeless?
    I want to thank Ms. Roman for coming to my district for a 
homeless and hunger summit. I am grateful for that. The 
Secretary of HUD came to my district as well, and I have an 
open invitation to the chairwoman to also come to my district 
and discuss rural homelessness.
    I yield back.
    Chairwoman Waters. Thank you very much.
    I now recognize the gentlewoman from New York, Mrs. 
Maloney, for 1 minute.
    Mrs. Maloney. I want to thank Chairlady Waters so much for 
holding this hearing. We have not had a Full Committee hearing 
on homelessness in many, many years. So I am thrilled that this 
committee is having its very first hearing on this important 
issue.
    Homelessness is an enormous problem in this country. Nearly 
one in seven people experiencing homelessness live in New York 
City, which I am privileged to represent. And it is a problem 
that demands immediate solutions. Roughly 78,000 people in New 
York City are homeless, yet New York City has one of the lowest 
rates of people who are homeless but are not sheltere; only 5 
percent of the 78,000 do not have a sheltered home.
    But we need to do far, far more. I am very pleased to be an 
original cosponsor of the chairlady's Ending Homelessness Act, 
which would provide over $13 billion in programs, the same as 
an aircraft carrier. Let's get our priorities straight.
    Chairwoman Waters. I will now recognize Mr. Cleaver from 
Missouri.
    Mr. Cleaver. Thank you, Madam Chairwoman. I would like to 
thank you for having this hearing. And I think Mrs. Maloney 
mentioned the uniqueness of dealing with this issue. But at the 
same time, I appreciate Mr. Duffy's work with me on the Housing 
Choice Voucher Mobility Demonstration Act.
    Tragically, I think we are precipitously moving toward the 
notion that we can do nothing about homelessness. And if we are 
going to have any discussion about homelessness, it will 
inevitably lead us to the discussion necessarily about 
affordable housing.
    We are in a crisis on affordable housing. And what I hope 
everybody understands is that as we remove affordable housing, 
it leads to homelessness. And so we have to deal with that 
issue if we are going to deal with homelessness. And this is a 
good start.
    Thank you, Madam Chairwoman, for this hearing.
    Chairwoman Waters. Thank you very much.
    We will now move to our witnesses for today. We welcome the 
testimony of Ms. Carolyn Darley, speaker advocate with the 
National Coalition for the Homeless; Dr. David Lucas, 
postdoctoral research fellow with the Institute for an 
Entrepreneurial Society, Whitman School of Management at 
Syracuse University; Ms. Nan Roman, president and CEO of the 
National Alliance to End Homelessness; Ms. Ann Marie Oliva, 
senior policy advisor with the Corporation for Supportive 
Housing; Mr. Justin Rush, public policy director for the True 
Colors Fund; and Mr. Joshua Stewart, director of policy with 
the National Coalition for Homeless Veterans.
    Without objection, your written statements will be made a 
part of the record.
    Ms. Darley, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

    STATEMENT OF CAROLYN DARLEY, SPEAKER ADVOCATE, NATIONAL 
                   COALITION FOR THE HOMELESS

    Ms. Darley. Good morning, ladies and gentlemen. It is my 
pleasure to be here. I am from the National Coalition for the 
Homeless. My name is Candi Darley. And what we do at the 
National Coalition for the Homeless, through our speakers 
bureau, which I am a part of, is to tell our stories far and 
wide, because we break the myths and the stereotypes as to what 
causes homelessness.
    As the gentleman before me said--and I almost nodded my 
head off--affordable housing or the lack of it is the number 
one cause of homelessness. And the stereotype is that the lower 
classes or the uneducated or the mentally ill, we like to call 
it the ``lazy crazy,'' and drug-addicted, but I beg to ask any 
one of you all if you might know someone who lives in a home 
and still experiences those three things. It is not a problem 
that only the individuals who are homeless experience. And I 
would like to make that a point quickly.
    My personal story is such that I never saw homelessness in 
my future, and I had preconceived notions as to who and what 
the homeless were, until it happened to me. I happened to 
become ill and then suffer a divorce in almost the blink of an 
eye. And before I knew it, I was at a shelter. I didn't even 
know shelters existed. And the individuals that I thought that 
I would meet there, let's just say my expectations were 
shattered.
    There was a doctor there who had fallen on hard times, and 
she went to work every day at Georgetown Hospital. There was a 
journalist there from The Washington Post and a few other 
individuals that you would not have expected. Because, see, 
homelessness does not discriminate against anyone.
    I would like to say that the Housing First program is the 
thing that saved me. In Housing First, it is designed for 
individuals who are homeless to get a place that is then 
subsidized until they can do better. Or if they have diagnoses 
as illnesses or dual diagnoses, such as mental illnesses, they 
get an opportunity to stay there for life.
    Now, the thing that I noticed being a recipient of that 
program is that we are viable members of society. Many people 
go on to help work towards advocating for homelessness and 
poverty in general. And it surprised even me.
    I remember speaking to a group of individuals at Villanova 
University, and a gentleman hearing my story could not contain 
himself. He said, ``She is just like us.'' And I don't know 
what he expected, but, yes.
    We also shouldn't forget that with the disasters that are 
befalling our country, these disasters also bear people towards 
homelessness. I believe the statistic is that 10 percent of the 
individuals who become homeless from fire, flood, or whatever 
natural disaster, stay that way. And we have to do something 
about that. Because when the individuals who make up this 
country, the middle class, falter, this country falters. And we 
can't afford that. We really can't afford that.
    So I would like to say something that I have always 
whenever I speak to people: I always believed that the opposite 
of wealth was poverty. It was not until I experienced this 
myself, that I understand that the opposite of poverty is 
justice.
    I urge the robust conversation on this topic. I urge it. It 
is happening to more and more individuals as time goes on. And 
you would be surprised at the individuals that I speak to all 
over the world and all over the country who say the same thing. 
So if we could get a handle on that by starting this 
conversation, it would be great.
    Again, it is my pleasure to be here. I thank you, and I am 
happy to answer any questions during this hearing or 
afterwards. Thank you very much.
    Chairwoman Waters. Thank you.
    Dr. Lucas, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

   STATEMENT OF DAVID S. LUCAS, PH.D., POSTDOCTORAL RESEARCH 
   FELLOW, INSTITUTE FOR AN ENTREPRENEURIAL SOCIETY, WHITMAN 
           SCHOOL OF MANAGEMENT, SYRACUSE UNIVERSITY

    Mr. Lucas. Good morning, Chairwoman Waters, Ranking Member 
McHenry, and members of the committee. Thank you for inviting 
me to testify today.
    My research focuses on analyzing efforts to end 
homelessness in our Nation, and so I am honored to speak with 
you on this topic. My present testimony cannot address all of 
the intricacies of this very important issue, but I can speak 
to three considerations based on my research and on the 
available evidence.
    The first point is that we do not yet know how to end 
homelessness. The second point is that the homeless problem 
varies widely across communities and individuals, reducing the 
likelihood of a universal solution. And the third point is that 
allowing service providers more flexibility to experiment, 
paired with the prioritization of performance data, will 
facilitate a more compassionate, more effective, and a truly 
evidence-based response.
    It is often said that we know what works to end 
homelessness, and the premise of this claim is that we have a 
sufficient evidence base to solve homelessness, specifically 
via Housing First. It is true that there are at least three 
acceptably rigorous studies that found that clients entering 
Housing First programs had higher rates of housing retention; 
they stayed housed, relative to other shelter programs.
    Importantly, however, these studies have only dealt with 
individual level outcomes. They tell us what happened to 
individuals or families who enter these programs relative to 
existing alternatives. But by construction, these studies do 
not demonstrate whether further implementation of the Housing 
First approach or related subsidies would end or even reduce 
homelessness in the aggregate. That is the important policy 
question. And actually the answers to this question are 
somewhat less promising.
    From 2009 to 2018, the Federal Government significantly 
increased annual homelessness funding to over $6 billion a year 
in 2018. This funding helped double the availability of housing 
subsidy-based programs for the homeless, adding 142,000 
permanent supportive housing beds and 100,000 rapid rehousing 
beds nationwide. But over this period, unsheltered homelessness 
only declined by 32,000 people.
    Of course, these numbers don't tell us what, if any, causal 
role these targeted efforts had in reducing homelessness. 
Economists, including myself, have estimated the effects of 
Federal homelessness funding and of permanent supportive 
housing beds on communities nationwide to determine whether 
they reduce the amount of homelessness, and controlling for 
other factors like housing market conditions, unemployment, or 
climate.
    Kevin Corinth found that communities required at least 10 
additional permanent supportive housing beds to reduce 
homelessness by just one person. In my research, I found that 
Federal homelessness funding over this period had no effect on 
the prevalence of unsheltered homelessness across communities 
in recent years, despite evidence-based practices mostly and 
increasingly being funded.
    Columbia University's Brendan O'Flaherty recently 
summarized the state of the literature as follows: ``We don't 
know how to end homelessness. Not in the aggregate, anyway.''
    So why would large increases in housing subsidy-based 
programs like Housing First yield small reductions in 
homelessness? One answer is that supplying permanent housing 
subsidies to the shelter system tends to increase shelter 
entries. But another important factor is that local conditions 
influence the nature of homelessness in the community and, in 
turn, the effectiveness of different approaches.
    Unsheltered homelessness, for example, is largely 
concentrated in warmer climates, while sheltered homelessness 
is more prevalent in colder places. These populations are very 
different, on average.
    The prevalence of homelessness also varies considerably in 
communities with similar climates, suggesting the importance of 
State and local policies. For instance, land use regulations 
reduce the availability of affordable housing, and they 
positively predict homelessness at the local level. Local 
tenant rules affect the incidence of eviction, which is a 
common precursor to shelter entry.
    On the other hand, strong communities may foster the 
prevention of homelessness. A recent study found that people 
with strong social ties to family, friends, and religious 
groups were 60 percent less likely to experience homelessness 
in the first place. Formal prevention programs have also been 
highly successful in New York City and Chicago. These examples 
suggest further solutions that go untried and untested in a 
system that focuses solely on long-term housing subsidies like 
Housing First.
    If it were a settled fact that the Housing First approach 
were the solution to end homelessness, the principal obstacle 
would be securing enough funding. However, it is unlikely that 
increasing funding for this or any one-size-fits-all approach 
will achieve that desired goal. Since many of the barriers to 
housing stability are local or individual in nature, this 
suggests the effectiveness of different programs across 
communities and across homeless subpopulations.
    I suggest that rather than mandating the proliferation of a 
single topdown approach, we increase organizations' flexibility 
to use existing scarce resources toward innovative efforts to 
alleviate homelessness in their specific communities. We should 
continue to invest in the collection of data on organization 
and community performance at addressing homelessness and allow 
these data to inform future funding decisions. Together, this 
would encourage the discovery of innovative solutions to 
homelessness that are tailored to local conditions and client 
needs and lead us to a more compassionate and evidence-based 
response.
    Thank you.
    [The prepared statement of Dr. Lucas can be found on page 
66 of the appendix.]
    Chairwoman Waters. Thank you, Dr. Lucas.
    Ms. Roman, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

STATEMENT OF NAN ROMAN, PRESIDENT AND CEO, NATIONAL ALLIANCE TO 
                        END HOMELESSNESS

    Ms. Roman. Thank you so much. And thank you, Chairwoman 
Waters, for convening this hearing. The National Alliance to 
End Homelessness is honored to appear before the committee 
today.
    Homelessness, as has been stated, is a very serious problem 
in communities all across the country and of all types, urban 
and rural. It is a complicated problem, but it is driven by the 
gap between rental housing costs and what low-income people 
earn. It is also exacerbated by racism, including in feeder 
systems such as the criminal justice, child welfare, and health 
systems.
    People often become homeless after a crisis that has 
economic implications, such as a health emergency, eviction, 
and divorce. Support networks, including family and friends, 
are a buffer against homelessness. People often become homeless 
when they lose their support networks because they move or 
because those support networks are simply too underresourced to 
help them.
    Given the increasing cost of rental housing and the 
widening gap between those costs and what lower-income people 
earn, we might reasonably expect that homelessness would be 
growing in the Nation. It is the feeder systems into 
homelessness and people coming into homelessness is the reason 
the number is going up. And, indeed, there is evidence that 
more people are becoming homeless, yet the number of homeless 
people, people who are homeless at a point in time, is not 
growing, as has been pointed out. It has decreased since 2007 
in over half of jurisdictions, including many of the 
jurisdictions of the members of this committee.
    The reason is that we do know what to do to end 
homelessness, which is basically to get people back into 
housing as quickly as possible and connected to supports in 
their communities. And communities are getting better and 
better at doing that by learning from each other's innovations. 
There is not a one-size-fits-all approach like Housing First, 
which is not a single approach, and low barrier shelter and 
using Federal resources to support those innovative solutions 
that communities come up with. A good example is the success in 
cutting veteran homelessness by more than half.
    Good things have happened definitely, but so much remains 
to be done. I want to bring up a few of the issues we see 
coming.
    As was mentioned, 35 percent of people who are homeless are 
unsheltered, a much higher percentage of adults, single adults. 
This is completely unacceptable in a Nation such as ours. 
Recent data show that unsheltered people are much more likely 
to be disabled and to stay homeless for long periods of time. 
While shelter is not a solution to homelessness, no one should 
sleep outside. This is a crisis that we do need to address.
    African Americans, Native Americans, and increasingly 
Hispanic and Latinx people are disproportionately homeless. The 
homeless system by itself cannot solve that problem of 
disproportionality, but it shouldn't add to it by treating 
people differently on the basis of race.
    HUD has incentivized communities to examine their homeless 
systems for disparities and to plan to remediate any 
disparities they find. Many groups, including our own, are 
helping with that. This is critical work that needs to 
continue.
    People who are housed are not homeless. The faster people 
get into housing, the better they do. And that is basically the 
simple premise of Housing First. It does, however, often take 
people quite a while in housing to solve their problems. Every 
homeless program in the country does not have to take a Housing 
First approach, and HUD does not require that they do so. But 
not to house people who are still struggling with mental 
illness, with substance abuse disorders, and with extremely low 
wages just means returning the most vulnerable people to the 
streets.
    People who receive assistance do have responsibilities, as 
do the programs that assist them. But Housing First is working 
to reduce homelessness, and we should continue to support it.
    The homeless population is aging fast, and this will 
generate significant healthcare costs, especially to nursing 
homes. The committee is urged to consider whether housing 
support focused on the aging homeless population would not only 
be right but be cost-effective.
    The U.S. Interagency Council on Homelessness (USICH) has 
done a wonderful job coordinating the 19 Federal agencies that 
help homeless people across the various dimensions of housing, 
behavioral healthcare, employment, and more. It leverages far 
more impact than its budget of less than $4 million a year. 
USICH should be permanently authorized and adequately funded.
    Finally, several pieces of legislation to address 
homelessness and/or housing are under consideration by the 
Congress. The Alliance is generally supportive of all the 
legislation that we have seen and particularly points out that 
the Ending Homelessness Act of 2019 introduced by Chairwoman 
Waters proposes a two-scale level of funding and addresses the 
problem across-the-board and seeks to end it.
    It would be very important for the committee to advance 
bills that both make fixes and create a vehicle that could make 
a dent in homelessness. We do know what to do. We just need to 
do more of it.
    Thank you so much to the committee for inviting the 
Alliance to testify.
    [The prepared statement of Ms. Roman can be found on page 
75 of the appendix.]
    Chairwoman Waters. Ms. Oliva, you are now recognized for 5 
minutes to give an oral presentation of your testimony.

     STATEMENT OF ANN MARIE OLIVA, SENIOR POLICY ADVISOR, 
            CORPORATION FOR SUPPORTIVE HOUSING (CSH)

    Ms. Oliva. Thank you so much.
    My name is Ann Oliva, and I am the senior policy advisor at 
the Corporation for Supportive Housing, or CSH. And I want to 
thank the committee for inviting me to testify today on this 
incredibly important topic.
    We all know that solving homelessness isn't easy. 
Communities across the country are struggling to make decisions 
about how to best use their scarce resources and to build the 
right mix of interventions, from prevention to supportive 
housing and everything in between, so that they can address the 
specific needs of their communities. Knowing which types and 
how much to invest in each intervention when most communities 
don't have enough of any single resource can be incredibly 
challenging.
    What we know about people experiencing homelessness today 
points to both challenges and solutions. In 2018, we saw 
increases in both unsheltered homelessness and chronic 
homelessness. And a recent study released by the University of 
Pennsylvania indicates that the homeless population, as Nan 
mentioned, is aging. And with an older population comes higher 
costs.
    People experiencing chronic homelessness are particularly 
vulnerable due to the length of time that they have lived on 
the streets and the disabling conditions that they face. 
Research shows that supportive housing, which is permanent 
housing with services designed to meet the specific needs of 
tenants, cost-effectively ends chronic homelessness. Costs on 
average are reduced by 49\1/2\ percent when people move from 
the streets and into supportive housing.
    And although as a Nation we have invested in over 300,000 
units of supportive housing since 2009, we are not nearly where 
we need to be to address this growing homeless population that 
is getting older and struggles with multiple challenges. 
Decreased Federal investments in supportive housing have made 
the situation even more difficult for our communities. We must 
invest more so that we can get back to making the progress we 
know how to make. And we need to continue to innovate and 
create avenues for individuals who are ready to move on from 
these programs.
    But implementing these move-on strategies is difficult when 
affordable housing is scarce. Tight housing markets are 
impacting both the number of people experiencing homelessness 
and the ability for homeless systems to exit people 
successfully.
    A recent report by the Zillow Group showed that communities 
where people spend more than 32 percent of their income on rent 
can expect a more rapid increase in homelessness. Homelessness 
is also impacting families across our country. In 2018, there 
were more than 180,000 persons in families experiencing 
homelessness on a given night. And for these families, we also 
know how to end their homelessness.
    The Family Options Study concluded that housing subsidies 
for families experiencing homelessness resulted in increased 
housing stability and had other significant benefits in family 
and child well-being. For high need or child welfare-involved 
families, resources like the family unification vouchers can 
provide the right level of subsidy and support to help families 
become stable.
    For young people experiencing homelessness, we have to 
continue to support efforts like the Youth Homelessness 
Demonstration Program so that we can build systems responsive 
to youth needs and that provide equal access for young people 
who are disproportionally compromised of youth of color and 
LGBTQ youth.
    It is clear that homelessness cannot be solved by the 
homeless system alone. CHS works in communities and across 
systems because life doesn't happen in silos. People don't 
interact with just one system. The challenge that local public 
agencies face requires coordinated and smart approaches. This 
type of cross-system collaboration is also important at the 
Federal level. The 47 percent decrease we saw during my tenure 
at HUD, in homelessness among veterans was not a coincidence. 
It was the result of hard work across agencies and in 
communities to make sure that we were aligned in every way.
    The U.S. Interagency Council on Homelessness was a critical 
partner in this work, and CHS supports the Working Together to 
End Homelessness Act of 2019 which permanently authorizes 
USICH. As a country, we can't afford to simply implement short-
term fixes or require people experiencing homelessness to be 
housing ready to qualify for housing. This is why it is so 
important that we continue to support programs that use a 
Housing First approach.
    Housing First is not housing only. Once the basic need of 
housing is addressed, then services can work with program 
participants to help them achieve their health, sobriety, 
employment, and personal goals. In a Housing First approach, 
people are treated with dignity and respect and are offered the 
services that they need and want to become stable.
    We know that we must both stem the inflow into homelessness 
and increase the outflow out of homelessness by making 
strategic choices like partnering with child welfare and 
developing solutions for justice-involved individuals. We must 
also recognize that people of color are disproportionately 
impacted by homelessness and work to dismantle the structures 
that lead to these inequities.
    Because the Ending Homelessness Act of 2019 recognizes all 
of this, empowers solutions to homelessness, and commits the 
Federal Government to many of the smart investments I have 
discussed, CHS supports it.
    Thank you so much for the opportunity to be here today.
    [The prepared statement of Ms. Oliva can be found on page 
71 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Rush, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

   STATEMENT OF JUSTIN T. RUSH, PUBLIC POLICY DIRECTOR, TRUE 
                          COLORS FUND

    Mr. Rush. Thank you for the opportunity to testify today 
regarding homelessness in America.
    My name is Justin Rush, and I currently serve as the 
director of public policy at the True Colors Fund, cofounded in 
2008 by Cyndi Lauper, which works to prevent and end 
homelessness among lesbian, gay, bisexual, transgender, queer, 
and questioning LGBTQ youth, seeking to create a world where 
all young people can be their true selves.
    To put our mission into action, the True Colors Fund 
provides training and education opportunities for our 
communities and service providers, engages Members of Congress, 
State houses, Federal and State agencies, and authentically 
collaborates with youth who have experienced homelessness to 
provide innovative solutions to addressing the youth 
homelessness crisis.
    Consideration of the issue of homelessness in the United 
States cannot be more timely, particularly as it pertains to 
our Nation's most impacted. An estimated 4.2 million youth and 
young adults up to age 24 experience homelessness each year in 
the United States. Annually, 1 in 30 youth ages 13 to 17, and 1 
in 10 young adults ages 18 to 25, endure some form of 
homelessness. LGBTQ youth have a 120 percent increased risk of 
experiencing homelessness compared to youth who identify as 
heterosexual and cisgender.
    African-American youth are also overrepresented with an 83 
percent increased risk of experiencing homelessness over youth 
of other races and ethnicities. Additionally, Latino and Latina 
youth make up 33 percent of 18- to 25-year-olds reporting 
homelessness, with African-American youth, especially young men 
aged 18 to 25 who identify as LGBTQ, reporting the highest 
rates of homelessness. Nearly 1 in 4 African-American young men 
ages 18 to 25 also identified as LGBTQ reported homelessness in 
the last 12 months.
    According to our service provider report, LGBTQ youth made 
up 33 percent of young people accessing homeless services. 
LGBTQ youth of color, particularly transgender youth of color, 
are more likely to experience violent crime, including sexual 
assault, police violence, robbery, and murder. Homelessness 
makes them even more prone to experiencing these traumatic 
events.
    Additionally, LGBTQ youth of color are more vulnerable to 
discrimination in education, employment, housing, and are more 
likely to be involved in the criminal justice system. 
Institutional racism, homophobia, and transphobia contributes 
to pathways into homelessness for these young people, and it 
stymies their ability to exit homelessness. Furthermore, 
transgender people report high rates of discrimination that 
contribute to their housing instability, which also deters them 
from accessing services with, according to one study, nearly a 
quarter of transgender adults surveyed reporting experiencing 
housing discrimination related to their gender identity.
    We are thankful to the committee for undertaking 
legislation that seeks to address the homelessness crisis 
within our country. Specifically, we support the Ending 
Homelessness Act of 2019, which would amend the McKinney-Vento 
Homeless Assistance Act to make significant additional 
appropriations available for emergency relief grants, rental 
assistance for households and individuals who are experiencing 
homelessness, and homelessness outreach and coordination 
services. The bill also permanently authorizes the U.S. 
Interagency Council on Homelessness, which has been integral in 
coordinating our Nation's response to the crisis.
    To be certain, preventing and ending homelessness means 
that Congress should ensure equal access to HUD-funded programs 
by providing legal protections based on one's sexual 
orientation and gender identity and ensuring all Continuum of 
Care providers receive training for LGBTQ cultural competency 
and linguistically appropriate services for those most impacted 
by the homelessness crisis.
    Preventing and ending youth homelessness means providing 
targeted programs with few to no programmatic prerequisites for 
permanent housing with low barrier emissions policies, rapid 
and streamline entry into housing, supportive services that are 
persistently used to engage tenants to ensure housing stability 
with all tenants having full rights and legal protections, 
especially transgender and gender nonconforming people. Most 
importantly, it means elevating the voices, experiences, and 
expertise of youth who have experienced homelessness and 
including them in all aspects of the planning and 
implementation process of programs and initiatives designed to 
prevent and end youth homelessness.
    Congress has laid the groundwork on this issue and should 
continue its support of these homelessness demonstration 
programs which bring together continuums of care and youth who 
have formerly experienced homelessness to provide technical 
assistance and capacity building towards implementing local 
plans to prevent and end youth homelessness.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Rush can be found on page 81 
of the appendix,]
    Chairwoman Waters. Thank you very much.
    And Mr. Stewart, you are now recognized for 5 minutes to 
give an oral presentation of your testimony.

   STATEMENT OF JOSHUA STEWART, DIRECTOR OF POLICY, NATIONAL 
             COALITION FOR HOMELESS VETERANS (NCHV)

    Mr. Stewart. Thank you.
    Chairwoman Waters, Ranking Member McHenry, and 
distinguished members of the House Committee on Financial 
Services, my name is Joshua Stewart. I am the director of 
policy for the National Coalition for Homeless Veterans, or 
NCHV.
    The good news is that since June of 2014, 66 communities 
and 3 States have achieved the Federal benchmarks and criteria 
for ending veteran homelessness. This is an achievable goal. We 
have seen the annual point-in-time count across the country of 
veterans experiencing homelessness decrease by 48 percent since 
2009. That said, with 37,878 veterans experiencing homelessness 
on a given night, we still have much work to do across the 
Nation. We need to maintain our efforts to ensure that 
homelessness is rare, brief, and nonrecurring for veterans and 
for all Americans.
    We have been making dramatic strides in the last 10 years, 
and there is every indication that we will continue to make 
progress if we don't lose focus. For Congress, this means 
ensuring that key programs that serve veterans experiencing 
homelessness are sufficiently funded and receiving sufficient 
oversight. The latter task is being accomplished here today at 
this hearing, and we thank you for examining the wider issue as 
well as including the veteran population in that examination.
    For the former, we at NCHV do not advocate for the 
unqualified growth of resources for the sake of expanding 
programs. Rather, we base our recommendations on evidence from 
the field and on national level data. For the Administration, 
this means keeping the issue of veteran homelessness a top 
priority among the leadership of VA so that they may continue 
to be a strong partner to HUD. Furthermore, the Administration 
should strongly support the United States Interagency Council 
on Homelessness, or the USICH.
    From President Reagan to Secretary Jack Kemp on to the 
leadership of current Director Matthew Doherty, USICH has been 
at the forefront of strategic planning, effective and efficient 
resourcing, and the sheer hard work of interagency cooperation. 
It has had a long history, but it has never been as effective 
as it has been over the last decade and as it is now. We must 
not lose the USICH. NCHV asks that Congress pass legislation in 
the 116th Congress to make USICH a permanent part of our 
system.
    Another critical aspect of our work to end veteran 
homelessness is the HUD-VASH program, which pairs a HUD-funded 
affordable housing voucher with VA case management services. 
Congress has been very generous with the creation of new HUD-
VASH vouchers since 2008 to great effect.
    The simple fact remains, however, that there is still much 
unmet need across the country. A recent survey of NCHV members 
indicated that 86 percent of our respondent communities still 
had an unmet need for permanent support of housing and a wait 
list for HUD-VASH. As such, NCHV is calling for more investment 
in the HUD-VASH program both on the tenant-based and project-
based sides, coupled with improvements to case management and a 
smart measured approach to recapture and disbursement of 
underutilized vouchers.
    I would also like to say a few words about an often 
overlooked portion of the veteran population. Veterans who 
received an other than honorable, or OTH, type of discharge 
from military service are in practice, though not in law, 
usually ruled ineligible for VA healthcare or other benefits. 
This is true even though many studies in recent years have 
shown that a large portion of OTH discharges are the result of 
servicemembers' behavioral changes due to repeat deployments or 
unaddressed post-traumatic stress. Despite a single digit 
percentage of America's veterans receiving an OTH discharge, 
they make up 15 percent of the homeless veteran population. 
NCHV strongly supports the Veteran House Act of 2019 before you 
today.
    In communities where the most progress has been made, 
several common themes exist. All of those communities made the 
mission central, prioritized services based on acuity, 
increased investments aligned with Housing First principles, 
remade their systems, and created or leveraged affordable 
housing. The Ending Homelessness Act of 2019 takes those 
commonalities as the core of the bill's approach to ending 
homelessness. NCHV can vouch for their successfulness.
    Perhaps the two most important things that we have learned 
from our work to end veteran homelessness is that it is 
possible to end homelessness in a community, and that it cannot 
be done without adequate stocks of affordable housing. This 
bill acknowledges both of those realities and, as such, NCHV is 
proud to support it.
    Thank you for the opportunity to present testimony at 
today's hearing. We look forward to working with the House 
Committee on Financial Services to ensure that any veteran 
facing a housing crisis has access to safe, decent, and 
affordable housing and the supportive services required to 
maintain it.
    Thank you once again, and I look forward to your questions.
    [The prepared statement of Mr. Stewart can be found on page 
85 of the appendix.]
    Chairwoman Waters. Thank you very much.
    I now recognize myself for 5 minutes for questions. And I 
am going to direct my first question to Ms. Oliva of the 
Corporation for Supportive Housing.
    Ms. Oliva, the most recent HUD data on homelessness shows 
that we saw an increase in people experiencing chronic 
homelessness between 2017 and 2018. These are people who have a 
mental illness or disability that has contributed to their 
inability to remain stably housed for an extended period of 
time. People experiencing chronic homelessness make up about a 
quarter of all people experiencing homelessness in the Los 
Angeles metro area, including over 600 children and youth. I am 
concerned that these families and individuals cannot 
effectively get access to the support they need without 
intensive case management.
    What do we know about the best strategies for addressing 
chronic homelessness and the role of social workers?
    The U.S. Interagency Council on Homelessness (USICH) plays 
a critical role in our Federal strategy to end homelessness. 
But if Congress does not extend its sunset, the authorization 
for USICH will expire at the end of funding year 2020. Last 
year, I was an original cosponsor for a bipartisan bill that 
would permanently authorize the USICH.
    Can you talk about why the role of USICH is so important 
and how the termination of USICH would affect our efforts to 
end homelessness?
    Ms. Oliva. Thank you so much for that question. I will 
start with the second part of that question about USICH. This 
is a point that is very close to my heart. I spent 10 years as 
a career public servant at the Department of Housing and Urban 
Development, most recently as the Deputy Assistant Secretary 
for Special Needs, before going to the Corporation for 
Supportive Housing. And I will tell you, from my own experience 
and from the experience of many of my colleagues across the 
Federal Government, that the kind of progress that we made 
between 2010 and when I left in 2017 really was contingent on 
having USICH in the place where they sat.
    I mentioned in my testimony that the 47 percent decrease in 
homelessness among veterans was not a coincidence, because it 
wasn't. It was the result of hard work and it was the result 
of--and that kind of progress was made in different areas as 
well. That is the one that most people know. But it was the 
result of alignment. And when we are talking about alignment, 
we are talking about funding alignment, policy alignment, 
making sure that everybody is sort of marching in the same 
direction, because if you don't have that within the Federal 
Government, then you won't have it at the local level as well.
    USICH was incredibly, incredibly important in all of those 
efforts, and remains incredibly important to make sure, again, 
that folks really understand how to move forward together.
    On the issue of chronic homelessness, I have had the 
opportunity, since I left HUD, to do some work in Los Angeles 
for the City of Los Angeles. And I agree, chronic homelessness, 
especially unsheltered homelessness within the City of Los 
Angeles is tough to see.
    We know that supportive housing is the solution for ending 
chronic homelessness. Back in 2015, I was briefing the U.S. 
Interagency Council staff and members on the point-in-time 
count. And we saw for the first time that chronic homelessness, 
that what progress we had been making was starting to flatten 
out. And it was really pretty directly tied to the kinds of 
decreases in Federal funding for supportive housing. You could 
see--like after sequestration, you could see that the decreases 
in Federal funding were really having an impact on chronic 
homelessness.
    So we know that supportive housing is the answer for that 
population, that there is a lot of evidence behind that. And we 
need to invest more funding in supportive housing for that 
reason.
    Thank you.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes the distinguished ranking member, 
Mr. McHenry, for 5 minutes for questions.
    Mr. McHenry. Thank you so much, Chairwoman Waters.
    Dr. Lucas, thank you for your testimony. Athough 
homelessness is down over the last decade, according to our 
government statistics, we know that it still affects every 
community in this country. So let's start with the hardest 
question to answer, which is what do you see as the root causes 
of homelessness?
    Mr. Lucas. Well, one of the big challenges and the reasons 
that homelessness is a very complex issue is that there are 
many different root causes. Housing is a very significant 
explanation, housing affordability. And the factors that affect 
that can be local in nature.
    At the individual level, there are many different causes of 
homelessness, even if, as I mentioned, if you compare people 
who are experiencing unsheltered homelessness who are 
physically living in cars, parks, or places not meant for human 
habitation, compared to those in shelters. If you compare 
individuals who are on their own to families, even men and 
women, and across race as well, there are many different 
circumstances that are precursors to homelessness.
    Mr. McHenry. So can homelessness be solved?
    Mr. Lucas. I think that there is likely not a yes-or-no 
answer to that. I do believe that we have learned a lot about 
things that work better than previous efforts. We have seen 
evidence that studies that compare Housing First approaches for 
individuals with mental illness or disabling conditions do work 
better at housing retention. However, there is limited evidence 
that those are: one, cost-effective; or two, actually reduce 
the incidence of substance abuse, at least in the studies that 
we have that actually compare outcomes of what would have 
happened otherwise.
    Mr. McHenry. So, the question of cost-effectiveness is not 
just a question of money; it is how you utilize those moneys.
    Mr. Lucas. Certainly. And while there are some claims that 
permanent supportive housing solutions save significant costs, 
actually a 2018 report by the National Academies of Sciences, 
Engineering, and Medicine revealed that actually there is 
insufficient evidence to demonstrate that permanent supportive 
housing saves healthcare costs or is cost-effective relative to 
existing alternatives. And that is likely because the costs 
vary considerably from community to community.
    Mr. McHenry. You mention innovation is a key part of the 
solution set for homelessness. But you talk about the one-size-
fits-all approach at the Federal level and how that should fit 
into this continuum of care, as well as where that Federal 
coordination fits with with State and local efforts.
    So to that point, has the Continuum of Care program been 
effective? And what recommendations would you give this 
committee to transform this Federal approach?
    Mr. Lucas. One of the really admirable and valuable things 
that USICH has spearheaded is increasing the collaboration and 
the creation of databases. They are called Homeless Management 
Information Systems (HMIS) at the community level. And those 
allow organizations to share information about client shelter 
entries, exits, reentry, et cetera, in ways that we didn't know 
before in a systematic way.
    With data like that, we now have the opportunity to 
identify programs and communities that are much more or less 
effective in the actual outcomes that we would like to see. And 
so further investment in that sort of approach allows us more 
flexibility in the solutions that are being implemented.
    Mr. McHenry. Through data sharing, is it, in essence? And 
so you are tracking folks who are perhaps in repeated 
homelessness cycles or those that are chronically without 
shelter?
    Mr. Lucas. That is right, which is a much smaller subset of 
the homeless population. The average shelter stay in 2017 was 
somewhere on the order of 40 days. So there is a large subset 
of the homeless population for which homelessness is brief and 
actually nonrecurring.
    Mr. McHenry. So, in 30 seconds, how do we leverage this 
Federal taxpayer dollar to get a better outcome?
    Mr. Lucas. Most of the allocation currently is on the basis 
of need, and there is also explicit, in the bills being 
discussed, prioritization of and earmarking for permanent 
supportive housing and Housing First approach for much of that 
funding. And rather than requiring that and prioritizing that 
in the notice of funding availability through HUD and others, 
allowing results to drive solutions would be better.
    Mr. McHenry. Thank you for your testimony.
    Chairwoman Waters. Thank you very much.
    I now recognize the gentleman from Missouri, Congressman 
Clay, the Chair of our Subcommittee on Housing, Community 
Development and Insurance, for 5 minutes,
    Mr. Clay. Thank you, Madam Chairwoman. Let me also thank 
the witnesses for your testimony today.
    Let me start with Mr. Stewart. The number of veterans 
experiencing homelessness in the U.S. has declined by nearly 46 
percent since 2010, with an even greater decline among 
unsheltered veterans, thanks in large part to increases in 
funding for veterans experiencing homelessness. More than 
600,000 veterans and their family members have been permanently 
housed, rapidly rehoused, or prevented from falling into 
homelessness through HUD's and VA's homelessness program.
    Can you speak to this progress? And what have we learned 
from fighting veteran homelessness that we should apply to 
ending all homelessness?
    Mr. Stewart. Absolutely, Congressman. Thank you for that 
question. And I promise I am not being flip when I say, 
``everything.'' Everything--every lesson we have learned as we 
have worked to end veteran homelessness can almost be directly 
applied to ending all homelessness in the United States.
    We have learned about funding evidence-based practices. We 
have learned about collaboration at the local level being 
crucial. There was just a question about continuums of care. 
And I would say that the continuums of care--linking CoC 
programs to VA-funded grant programs in a community is a 
precursor and a requisite precursor to success in a community.
    So joining forces, sharing the same goal, discussing 
tactics, having a coordinated entry system on the community 
level, these are all very real tactical things that we have 
learned that need to be replicated across the system to 
replicate our successes from the veteran space.
    Mr. Clay. And you think that would work with the chronic 
homelessness too?
    Mr. Stewart. Absolutely, sir. We focused very early on 
specifically targeting our HUD-VASH vouchers to chronically 
homeless veterans, so it has been proven to work for that 
population.
    Mr. Clay. Thank you for that response.
    Ms. Oliva, some communities use zoning or they pack the 
homeless shelters into just one area. Can you share with us 
some of the don'ts or the least successful models that you have 
seen around this country that we should not try to emulate?
    Ms. Oliva. Thank you for that question. I think that 
communities that are struggling the most, obviously there are 
external factors that we are all recognizing here. There are 
affordable housing shortages. There are local land use policy 
and zoning policies, for example, around density or other 
things that would really impact the ability to increase the 
supply of affordable housing and supportive housing in a 
community.
    So in communities that I am working in now, the most 
success that we are having is when those things are all sort of 
packaged together. We are talking a lot on this panel about the 
homeless services system. But I would argue that, obviously, 
homelessness cannot be solved by that system alone. So rather 
than saying what the ``don'ts'' are, I think I can say what the 
``dos'' are.
    And what the ``dos'' are is you have to look at this as a 
package of policy program data, all of those things together, 
to really understand how things at the local level interact, 
how services for people who have substance use disorders or who 
have mental health issues interact with the homeless services 
system or how youth access the homeless services system or can 
access affordable housing, and then wrap that together into 
really robust policy initiatives that help on a variety of 
fronts, not just on homelessness.
    Mr. Clay. Sure.
    And, Dr. Lucas, can you share with the committee the best 
practices that address ending homelessness that have reduced 
numbers in communities around this country?
    Mr. Lucas. Thank you for that question. As I have mentioned 
and as has been mentioned, one of the dramatic effects of the 
policy efforts over the last decade has been the expansion of 
permanent supportive housing, much of that adhering to a 
Housing First approach.
    The estimates of what we have seen at the aggregate level 
on that suggest that it takes 10 additional permanent 
supportive housing beds to reduce homelessness by one person. 
And if the estimated costs of that are about $20,000, that is 
about $200,000 per person, a total of the current homeless 
population, $110 billion. So we don't know yet.
    Mr. Clay. Thank you for those responses.
    I yield back.
    Chairwoman Waters. Thank you very much.
    I now call on the gentlewoman from Missouri, Mrs. Wagner.
    Mrs. Wagner. Thank you, Madam Chairwoman, for holding this 
hearing today on the heartbreaking crisis of homelessness, 
which affects every community in America.
    Last year, I was honored to visit Loaves and Fishes, the 
longest operating homeless shelter in St. Louis County. I 
witnessed firsthand their tremendous work to help those who are 
experiencing economic hardships. Catholic Charities of St. 
Louis, St. Patrick Center, and so many other organizations in 
the St. Louis area are coming alongside disadvantaged and 
marginalized populations to help people get back on their feet.
    I am eager to work with this committee, Madam Chairwoman, 
this year to advance accessible and affordable housing for 
those who need it most in the St. Louis region and across the 
country.
    I am proud that the Catholic Charities of St. Louis has 
just been selected to participate in a 5-year healthy housing 
initiative to reduce chronic homelessness and frequent ER 
visits. This multimillion dollar initiative is being led in 
collaboration with the St. Patrick Center, the Archdiocese of 
St. Louis, Incarnate Word Foundation, Mercy, DJC Healthcare, 
and SSM Healthcare.
    Dr. Lucas, I believe that local collaboration like this 
between hospitals and shelters can complement the goals of the 
Federal programs. What can policymakers learn from these types 
of collaborative programs?
    Mr. Lucas. Thank you for your question. We certainly have 
learned that being able to collaborate not just in the efforts 
but in the sharing of data on what is being done frankly will 
take a step toward identifying what works. And so there have 
been some investments in developing systemic responses where 
there are many stakeholders at the local level involved, and 
those are the kinds of things that right now only a fraction of 
resources are being devoted to relative to the $6 billion that 
are already being spent each year on this issue.
    Mrs. Wagner. There are so many of these partners who are, 
in fact, on the front lines, and to share the data, to share 
the information I think helps all.
    Fighting sex trafficking and providing services for women 
and girls who are trying to piece their lives back together is 
one of my very, very top priorities here in Congress. I am 
currently working on legislation to increase the availability 
of housing to human trafficking victims.
    Ms. Roman, I know your organization, Ms. Darley, or one or 
the others, have been supportive of legislation to provide 
housing to runaway and homeless youth. Is there space for local 
housing authorities to partner with antitrafficking service 
providers to provide better assistance to victims of 
trafficking, and can you discuss how we can most effectively 
provide housing to trafficking victims? Ms. Roman?
    Ms. Roman. Well, just briefly, and thank you for the 
question, again, I think housing really is the solution to so 
many of these problems, and there is absolutely space for 
housing authorities to be working with organizations that are 
trying to prevent trafficking, and I think targeting some of 
the PHA resources more toward the most vulnerable people 
across-the-board would probably improve a lot of outcomes. It 
is a tremendously important issue, though, as you point out.
    Mrs. Wagner. Thank you. Ms. Darley, do you concur?
    Ms. Darley. I would have to agree. Women experiencing 
homelessness, living in a shelter or out in the open, 
unfortunately, are the most vulnerable individuals, even 
sometimes more so than children, but children are a part of the 
trafficking also. So, of course, there is room for that.
    Mrs. Wagner. Thank you, Ms. Darley.
    Dr. Lucas, you wrote in your testimony that the Federal 
Government has increased its investments in combatting 
homelessness in recent years, but we unfortunately haven't seen 
the results we may have expected. Can you briefly discuss local 
policy decisions that are hindering progress and contributing 
to the homeless crisis throughout the country?
    Mr. Lucas. Thank you for that question. As I mentioned 
briefly, there is a fair amount of rigorous evidence that land 
use regulations that make it more difficult to expand the 
supply of housing have a very significant effect and are high 
predictors, very strong predictors of rates of homelessness for 
one.
    Mrs. Wagner. All right. Thank you. Do you believe that 
there is a one-size-fits-all Federal approach that is outdated 
and needs to be replaced, sir?
    Mr. Lucas. In many ways, certain inputs, the types of 
programs we do have been prioritized, rather than the outputs 
that they are yielding, so in that sense, yes.
    Mrs. Wagner. Thank you. I appreciate it. I yield back.
    Chairwoman Waters. Thank you. I now yield to the gentlelady 
from New York, Mrs. Maloney, for 5 minutes.
    Mrs. Maloney. Thank you, Chairwoman Waters, and Ranking 
Member McHenry, for holding this really important hearing. I 
would like to ask Ann Marie Oliva a question. In New York City, 
which I have the privilege of representing, we have one of the 
highest homeless populations in the Nation, but most of our 
homeless population lives in sheltered areas, they have 
shelter. Only 5 percent is unsheltered. Could you give us 
specific policies that would particularly work in helping the 
homeless who are in sheltered facilities?
    Ms. Oliva. Thank you for that question. I do have quite a 
bit of experience looking at New York, looking at their data 
and their policies over the last, I don't know, 20 years of 
work that I have been doing in this area, and New York City has 
a high sheltered population because they have a very unique 
local policy or local laws around a right to shelter. There are 
only a handful of communities across the country that have a 
right to shelter, and New York City is one of them. So that is 
one of the reasons that there is a very high sheltered 
population in New York City.
    But I think that the answers in New York City are similar 
to the answers in other places, and that is really the right 
mix, understanding your data, understanding the intersections 
between populations that are using other systems, the mental 
health system, the substance use system, the youth system and 
the jails, and really understanding those intersections and 
developing the kinds of interventions that will work for people 
in those intersections--sometimes it is supportive housing; 
sometimes it is something else--and allowing for innovation in 
those areas. I think New York in particular has a really big 
opportunity and has a history of working in those intersections 
to understand the needs of people who are using all of those 
different systems.
    Mrs. Maloney. Thank you, and I thank you for your 
testimony. I would like to ask all of the panelists the same 
question starting with Carolyn Darley and just go down the 
line. Please answer yes or no and/or pass. I want to know, do 
you think that Congress should prioritize addressing the 
homeless crisis by passing the Ending Homelessness Act, which 
would provide $13 billion to combat homelessness in various 
programs, and this would be paid for by shifting $13 billion 
that has been allocated for an aircraft carrier or some other 
similar weapon? Just yes or no or pass. Ms. Darley?
    Ms. Darley. Yes.
    Mr. Lucas. Pass.
    Ms. Roman. Yes.
    Ms. Oliva. Yes.
    Mr. Rush. Yes.
    Mr. Stewart. Yes, with the caveat that I don't care how we 
pay for it.
    Mrs. Maloney. I was making a point on literature and 
information that was in our research that showed that some of 
these weapons cost as much as projected that would end 
homelessness in our country.
    I would like to ask Ms. Oliva again, we see in the research 
that there are many populations that are more affected than 
others. We heard testimony that there has been progress made 
with veterans. Could you comment on what populations are the 
most in need and any ideas of how we could be more helpful to 
those populations?
    Ms. Oliva. Thank you for that question. So certainly we 
need to be able to walk and chew gum at the same time and 
address the populations that are really high need across all, 
so families and individuals, people experiencing chronic 
homelessness, veterans, and youth. I would say right now we are 
making incredible progress on trying to understand and be able 
to develop innovation around ending youth homelessness.
    You heard from my colleague, Mr. Rush, today about some of 
the work that the True Colors Fund is doing, as well as some of 
the work that the Federal Government is doing on ending youth 
homelessness for a very vulnerable population of young people 
who started to experience homelessness as children and are now 
sort of in transition.
    I would also say that, again, people who are experiencing 
chronic homelessness and who are living out on the streets are 
particularly vulnerable because they have been outside for so 
long and they have a lot of disabling conditions. So our focus 
on young people, our focus on people who are experiencing 
chronic homelessness, as well as on families, we have to be 
able to do all of those things at the same time. Thank you.
    Mrs. Maloney. Thank you.
    Chairwoman Waters. Thank you very much.
    I now yield to the gentleman from Missouri, Mr. 
Luetkemeyer, for 5 minutes.
    Mr. Luetkemeyer. Thank you, Madam Chairwoman. This is an 
interesting panel this morning, and I thank you for that. Mr. 
Stewart, it would seem to me, from the information we have been 
given and the statistics we have been shown, that it seemed 
like it would be making a dent in the veterans homelessness, is 
that a fair statement?
    Mr. Stewart. Yes, absolutely, Congressman.
    Mr. Luetkemeyer. And by doing the approach that has been 
done in your area, it would seem to me that would be an 
approach that across-the-board, we need to be taking, would 
that not be a way to start the thought process?
    Mr. Stewart. I think that is also a very fair way to think 
of it.
    Mr. Luetkemeyer. Why are we not doing that for the rest of 
the homeless groups?
    Mr. Stewart. I think to a certain extent we are, 
Congressman, respectfully.
    Mr. Luetkemeyer. Okay.
    Mr. Stewart. The learning that we have done in the veterans 
space, the development of best practices is directly relatable 
and it is often times used, is transferred to other sectors of 
the homelessness population at the community level all the way 
up to USICH in disseminating those practices.
    Mr. Luetkemeyer. I saw one of the slides we had up a minute 
ago with regards to veterans, and I think it was, between 2007 
to 2017, there were 31,000 people who became homeless and 30 
percent of those were veterans, which is a staggering number. 
Is that number correct? Do you concur with that?
    Mr. Stewart. I didn't see the slide, Congressman. I do know 
there are 37,878 veterans who are experiencing homelessness on 
a given night this year.
    Mr. Luetkemeyer. Okay. So there are more veterans who are 
falling into this situation, but yet we are able to get a 
handle on that more or less, is that what you are saying?
    Mr. Stewart. That is always the challenge, Congressman, is 
every year more people present for care, more people fall into 
homelessness. That is true for every population, and I used to 
say that if I could wave a magic wand and solve veteran 
homelessness, I would, but then tomorrow morning, there would 
be new people to serve.
    Mr. Luetkemeyer. Mr. Lucas, you talked a little bit about 
some of the statistics on this, but I serve some of the rural 
parts of Missouri as well as the suburbs and exurbs of St. 
Louis, but I have lots and lots of--a rural area. Can you give 
me some numbers or describe the situation for rural 
homelessness, is that a problem, are the causes, the 
situations, the same, different, would you have a different 
approach to those folks than you do for urban individuals, can 
you elaborate on that just a little bit?
    Mr. Lucas. Thank you for that question. Off the top of my 
head I don't have the relative share of homeless who are rural 
as opposed to urban, but there is a sizeable subset of the 
homeless population living in rural areas, and it is an 
important subset of that population, and in some ways one of 
the biggest things that is very different across those two are 
the alternative systems that are available and the costs of 
use, for example, other systems in urban areas as opposed to 
rural areas. And so certainly the cost-effectiveness of 
different solutions and the effectiveness in terms of 
facilitating housing retention are really--
    Mr. Luetkemeyer. We did have on this panel a gentleman from 
New Mexico, and over 50 percent of his citizens in his district 
lived in mobile homes, lived in very, very rural areas of New 
Mexico, and so housing in rural areas is significantly 
different than that of urban areas, and so I would think you 
would have to have a little bit different approach in that 
respect, but the situation is different. Let me move on.
    Also, Mr. Lucas, in breaking down the statistics of 
homelessness, I know Ms. Darley made the comment a while ago 
with regards to some of the folks that she experienced in some 
of the shelters who were employed, with apparently good jobs, 
and yet still wound up in shelters. Can you tell me the 
percentage of people who are homeless but have jobs, and those 
who maybe don't have a job right now but, if you gave them the 
skill set, could go get a job, because it would seem to me if 
we are looking at being able to afford to be able to pay rent 
or afford to be able to buy a house, you are going to have to 
have a job, or if you are disabled, you have to have a check of 
some kind probably or a subsidy of some sort. But for those 
people who are capable of getting a job and the skill sets, 
what percentage of those people would make up the homeless 
people today?
    Mr. Lucas. Well, we know that there is some evidence that 
that percentage is increasing in terms of the people entering 
shelters, that there are higher rates of people entering.
    Mr. Luetkemeyer. I only have 15 seconds left, so one quick 
question. If those folks--I realize a lot of different things 
can hit somebody in that situation, but would a financial 
management course or class or somebody in a social services 
setting be able to help them?
    Mr. Lucas. Possibly. We don't know yet.
    Mr. Luetkemeyer. Okay. Thank you.
    Chairwoman Waters. Thank you.
    I now yield to the gentleman from Georgia, Mr. Scott, for 5 
minutes.
    Mr. Scott. Thank you, Chairwoman Waters. We are running 
through a number of very important statistics, but the absolute 
most glaring statistic is this, that we really ought to put on 
the table, and that is, 40 percent of all the homeless men, 
women, and children are African Americans, and they only make 
up 13 percent of the population.
    Now, we can dance around a lot of things, but if we are 
serious about doing something for the homeless and dealing with 
this, we have to pull the covers off of this ugly thing called 
racism. And so I want to ask Ms. Roman, I think you came 
closest to touching on this, and if there are other witnesses 
who would like to answer, and here is why: Many of us on this 
committee are working with Chairwoman Waters on a bill that 
will bring $13.27 billion to this issue. However, if we don't 
get under these covers and pull off the scab of this racism 
that it is causing--40 percent, just imagine, if 40 percent of 
all the people in this country were homeless, that is what I am 
talking about.
    So, Ms. Roman, could you tell us, because you touched upon 
it, your thoughts on this, what must we in Congress do to deal 
with the racism that is here because it is shameful that 40 
percent of all the homeless men, women, and children are 
African American?
    Ms. Roman. Of course I wish, and I am sure you wish, that I 
had a simple answer to that question, but if I could just 
reflect on two parts of it, one is, how does it come to be that 
40 percent of people who are homeless are African American in 
the first place? The homeless system really has very little to 
do with that. That is the feeder systems into homelessness. So 
all of the things that you all are addressing--the 
disproportionality in the criminal justice system and the 
disproportionality in the child welfare system are two of the 
biggest feeder systems into homelessness. Housing 
discrimination. It goes on and on.
    So, those things have to be addressed. They are not going--
the homeless system can help to address those, but we don't 
control those things.
    Mr. Scott. Okay.
    Ms. Roman. What we control is what is essentially a crisis 
system, but we have to look at the homeless system to see, are 
we entering people into the homeless system at the same rate 
regardless of race?
    Mr. Scott. Okay. Ma'am, I only have 1:20 left. I definitely 
want to get to Mr. Stewart because I think there is a direct 
application to this. Mr. Stewart, you talked in your--about two 
things, coordination and funding, working together and that has 
been what has succeeded with the veterans program, is the fact 
you are able to coordinate with the Federal agencies and apply 
the money. Can we do this with respect to being able to deal 
with this huge disparity among African Americans in homeless?
    Mr. Stewart. I believe so, Congressman. I believe a lot of 
the groundwork has already been laid. A lot of the local-level 
collaboration that we are talking about that was done in an 
effort to end veteran homelessness serves multiple purposes.
    Mr. Scott. How would we be able to apply this big bill that 
we are working on? Because I think we can put some muscle 
behind what Chairwoman Waters is leading the effort on and 
applying some of this money to addressing the racism factor. We 
are going to get $13.27 billion to work on this.
    Mr. Stewart. I think we have to, Congressman. If we are 
really going to solve the issue of homelessness, we have to.
    Chairwoman Waters. Thank you very much. Let me just take 
this moment to say that, despite the fact that you saw the USS 
Gerald R. Ford aircraft carrier depicted on the screen, I don't 
want anyone to go out saying that is where we are going to get 
the money from, that we have targeted that particular aircraft 
carrier. We have not targeted any existing funds. We are 
looking for the government to fund this program without having 
to target existing programs. Thank you very much.
    With that, I will call on the gentleman from Michigan, Mr. 
Huizenga, for 5 minutes.
    Mr. Huizenga. Thank you, Madam Chairwoman, and representing 
part of Gerald Ford's old congressional district, I do 
appreciate that, and since it is out floating already, I am not 
sure we can put it up for sale anyway. But Mr. Lucas, I am not 
a big fan of the yes/no question that was thrown at you 
earlier. You passed when you were asked about the $13 billion 
package that has been proposed, and I just wanted to give you 
30 seconds to elaborate on that.
    Mr. Lucas. Well, thank you. My take is that additional 
spending in the ways proposed is unlikely to achieve the stated 
goals of the legislation based on the evidence that we have 
seen at the population level. Despite seeing some decreases in 
homelessness, the effect of these policy changes on that have 
been fairly limited to date based on the evidence that we have.
    Mr. Huizenga. So it is basically effectiveness, right? You 
are questioning how do we effectively use and succinctly use 
the moneys that are put into the programs?
    Mr. Lucas. Yes.
    Mr. Huizenga. Okay. I also want to explore a little bit 
about the influence of local zoning and regulatory structure. 
Recently, there was a joint study by the National Multifamily 
Housing Council and the National Association of Home Builders, 
and to be clear, my family is involved in construction and 
building, and I have seen this firsthand as well, but that 
study said that approximately 30 percent of costs associated 
with building multifamily developments was attributed to local 
zoning and regulatory requirements. And Ms. Oliva you had said 
earlier that it is not just--I think this was your quote, not 
just the homeless services system, but we need a package of all 
these local services, and I just wanted to give you an 
opportunity if you looked at that, you mentioned the zoning and 
what some of those structural barriers might be to having 
affordable housing being built.
    Ms. Oliva. Well, the first thing I would say is that there 
has been a decreased Federal investment in affordable housing 
over the last several years. If you look at the Section 202 
Program or the HOME Program, or other types of programs that 
the Federal Government has historically used to help spur local 
investment, and that has been a fairly significant decrease 
over the last couple of years.
    Mr. Huizenga. Okay. How about the influence of local and 
State regulations?
    Ms. Oliva. Sure. So I think from the local and State 
perspective, what we are seeing is localities trying to find 
creative ways to innovate and to merge types of funding like 
from Medicaid or the--
    Mr. Huizenga. So do you believe that there are more 
barriers or fewer barriers that are being put up by local--I am 
talking specifically about zoning; I am not talking about 
taking different pools of money to address this.
    Ms. Oliva. I don't think that is consistent across the 
entire country. There are communities that are taking a lot of 
very positive steps towards making zoning changes, so that 
affordable housing can be developed.
    Mr. Huizenga. My experience has been the opposite, frankly, 
that there have been more barriers put in. Dr. Lucas, do you 
have anything you would like to add on that?
    Mr. Lucas. No, not at this time.
    Mr. Huizenga. Okay. Quickly, Ms. Roman, I would like you to 
address--this has been an issue that has come to this 
committee's attention previously and we have touched on this--a 
segment of homelessness that I am concerned about which is 
seeing kids, foster kids who are terming out, and they are not 
necessarily eligible. We know that there is this event horizon 
that is happening when they come of age, yet they may not be 
able to access some of those systems, and I am curious if you 
could comment on that quickly?
    Ms. Roman. Well, I think if they are homeless, they can 
access those systems. There is nothing stopping anybody who is 
exiting foster care from receiving assistance from the homeless 
systems. We would hope for better outcomes from the foster care 
system than to emancipate young people into homelessness. Mr. 
Rush may also--he works on that issue. He may have more 
thoughts about that.
    Mr. Huizenga. I have 30 seconds, so I want to also ask what 
coordination should happen? There was a little discussion about 
trying to look at the totality of who folks are--and my 
colleague brought up financial planning, but we also maybe have 
substance abuse. We also have mental health services that may 
be needing access. It seems to me we might have some HIPAA 
issues as you are having some coordination, and, you know, I am 
looking at what types of road blocks that we might have 
structurally that can help that, and my time is up, but maybe 
we can communicate by letter afterwards, and I appreciate your 
time.
    Chairwoman Waters. Thank you very much.
    The gentleman from Missouri, Mr. Cleaver, is recognized for 
5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    I want to follow up on what Mr. Scott began to talk about, 
and to some degree Mr. Huizenga just mentioned it, and Ms. 
Darley, Ms. Oliva, and Ms. Roman--and by the way, thank you for 
your willingness to come back over these years that I have been 
here, thank you--and that is homelessness; there are other 
issues that probably can eliminate homelessness. That is 
somewhat troublesome, and to be completely contemporary, I read 
this article about a guy from Rio Dell, California, Michael 
Thalheimer I think is his name, who was a Federal employee who 
was quoted in a Los Angeles newspaper saying, ``I am about a 
week away from homelessness.''
    This is a guy who gets up and goes to work every day for 
the United States Federal Government, and because of the 
shutdown, he is moving toward homelessness, and Zillow, which 
is one of those online realtors, estimated that 40,000 
mortgages were at stake during the government shutdown, 40,000. 
And so I think it makes us feel a lot more comfortable to just 
think this is some guy who just doesn't want a house and he 
doesn't want to work and so forth that that, as Ms. Darley 
mentioned, that those are the homeless folks. So can you guys 
talk about the issue of housing instability, which I think is 
one of the primary factors in creating homelessness? And Ms. 
Darley, you mentioned that whole issue of people having to live 
with relatives, sleeping on the sofa--I don't want to go there. 
I would like for you and Ms. Oliva and Ms. Roman to talk about 
the housing instability that precipitates, in many cases, 
homelessness.
    Ms. Darley. Thank you for that question. Housing 
instability starts with the very first thing that I mentioned, 
which is lack of affordable housing. I was surprised to find 
that so many individuals worked or had some sort of income, 
i.e., Social Security, when they were in shelters, and I asked 
why they could not afford rent. They had money, but not enough 
for rent. Also with gentrification happening in so many of our 
large cities, there is a saying that if you see the red 
bicycles, then you know that your neighborhood is going to 
change. And these neighborhoods which were at one time 
undesirable all of a sudden become hip and people who have 
generationally lived there have to move and find housing 
elsewhere, if they find housing. So that is something that I 
found. I don't know if I have answered your question--
    Mr. Cleaver. Gentrification, clearly--
    Ms. Darley. Which was not mentioned.
    Mr. Cleaver. I was in San Francisco earlier last year, and 
I was with some friends driving, around and we saw a Latino guy 
walking down the street, And I said, ``You know, this is the 
first time I have seen a Latino.''
    And my host said, ``Well, it is going to be very difficult 
for you to see them after 5 or 6 o'clock because the population 
of African Americans in San Francisco is below 3 percent and 
Latinos is lower than that because they can't afford to live 
there, so they cross the bay.''
    Ms. Roman?
    Ms. Roman. Well, just to say what you know, which is that 
poor people generally are paying way too much of their income 
for rent because there is not enough affordable housing, so the 
majority of people who earn below 30 percent of area median 
income are spending more than half that income for rent and 
that causes housing instability and puts them at risk of 
homelessness. And that is because of the gap, the 7 million 
unit gap in the number of affordable and available units, and 
that is what you are seeing in San Francisco. There are no 
affordable and available units there.
    Mr. Cleaver. Ms. Oliva?
    Ms. Oliva. Yes, paying 30 percent of your income towards 
rent, that number actually plays out in the report that was 
done by Zillow recently that you just mentioned. And I said in 
my testimony as well that when people spend more than 32 
percent of their income in rent, then the community sees a more 
rapid increase in homelessness. So there is a very direct 
correlation as you are saying between housing instability and 
homelessness.
    Mr. Cleaver. Thank you.
    Chairwoman Waters. Thank you very much. The gentleman from 
Kentucky, Mr. Barr, is recognized for 5 minutes.
    Mr. Barr. Thank you, Madam Chairwoman. Thank you for 
hosting this hearing, and thank you to our witnesses for your 
testimony. We all join you in your desire to combat the problem 
of homelessness in America. And when it comes to Federal 
efforts to combat homelessness, Congress and the Executive 
Branch have had a tendency, I believe, to implement a one-size-
fits-all policy, because the causes of homelessness are complex 
and varied. And while often carried out with good intentions, 
this one-size-fits-all approach has failed to produce the 
intended results that we are all seeking, which is, of course, 
less homelessness.
    After working with groups in my district in central and 
eastern Kentucky who are working and doing great work to combat 
homelessness and really caring for these people who are 
struggling and suffering, I have seen the impact that the 
Department of Housing and Urban Development's overreliance on 
the Housing First model has had in terms of diminishing the 
opportunity of creative solutions outside of the Housing First 
model. These organizations must choose to either change their 
approach and adopt a Housing First model, or they lose their 
HUD funding. And while I understand that Housing First may 
benefit certain portions of the homeless population, I am 
concerned about the lack of flexibility for Federal funds.
    Mr. Lucas, my first question is for you. Through Federal 
bias and funding decisions, Housing First has largely displaced 
other approaches, such as those including transitional housing. 
Is there sufficient evidence to abandon programs like 
transitional housing--is there sufficient evidence out there to 
abandon approaches that don't include wraparound services 
targeting the root causes of homelessness such as addiction and 
lack of work, lack of skills, lack of education? Shouldn't we 
be looking at programs that target the root causes of 
homelessness as opposed to just saying homelessness is the 
result of a lack of shelter?
    Mr. Lucas. Thank you for your question. In some ways, the 
short answer is it depends, but as you mentioned, transitional 
housing is a type of shelter in which we have seen massive 
reductions in the total supply over the last 10 years. It is 
cut in half to about 100,000 beds of that type now. And in part 
that is because organizations that are providing shelter 
services have now faced strong pressure to adopt certain types 
of specifically Housing First-type models to increase the 
likelihood that they can retain funding. And for that reason, 
there is some evidence that transitional housing is incredibly 
costly, but there has only been a small number of studies that 
have actually compared those costs. And it may be that certain 
transitional housing programs are more effective than others. 
There may be other types that we haven't thought of yet. There 
are prevention programs that cut off homelessness in the first 
place before it has occurred that have been very successful: in 
New York City, the Home Base Program; and then in Chicago as 
well.
    Mr. Barr. Let me jump in and ask another question about 
Section 8. The Congressional Research Service has looked at the 
Section 8 housing choice voucher program. They have looked at 
public housing, and what we can identify from the data is that 
about half of the recipients of public housing or housing 
subsidies, Section 8 subsidies are disabled or they are 
elderly, not capable of working, and then another half of the 
recipients of public housing are able-bodied work-capable 
adults. And if you look at the data further, you see that about 
20 percent, maybe a little bit more than 20 percent of those 
are prime age work-capable, able-bodied adults with no wage 
income.
    We have more job openings in America today than there are 
unemployed Americans. People who are struggling in homelessness 
or who don't have housing are talented people who could 
contribute their talents in the workforce. What are we doing in 
terms of combatting homelessness with our HUD programs to 
require that able-bodied work-capable adults work as a 
condition of receiving housing benefits? And wouldn't that be 
the practical route to escaping poverty for those 20 percent of 
the population that receive housing benefits, to require work 
as a condition of receiving those Section 8 benefits? Any of 
you, but, Dr. Lucas, go ahead.
    Mr. Lucas. I will be quick just in case anyone else wants 
to say anything. The Housing First approach specifically does 
not require anything like that, and there are certain people 
who face significant barriers to obtaining employment for which 
that might not be the solution, but there are many others where 
that might be an answer.
    Mr. Barr. My time is expiring, but I would just say that, 
before we spend $13 billion, we should look at more creative 
solutions like that.
    And I yield back.
    Chairwoman Waters. The gentleman from Florida, Mr. Lawson, 
is recognized for 5 minutes.
    Mr. Lawson. Thank you, and welcome to the committee.
    Ms. Darley, I want to ask you a question. When I was a boy 
growing up in the country, lightning struck, houses would burn 
to the ground, and I can recall moving with the family 5 times. 
Was I homeless, or was I in transition?
    Ms. Darley. Thank you for asking. As far as I know, the 
definition for homelessness is if you are not on the lease, so 
maybe you were. You have to consider individuals who couch surf 
and stay with friends and family. They are still homeless 
because they don't have a shelter of their own. So maybe you 
were, but maybe you were also in a community that was able to 
assist you and help you out whereas this happens mostly in 
cities and the individuals in cities, I am sorry, are not as 
either willing or able to help out others in the same way.
    Mr. Lawson. Okay. My other question can be to the whole 
panel. With the decrease in HUD funding over the past several 
years, how has the Federal Government, the ability for you all 
to implement housing programs that provide safe and affordable 
housing options for people? Anyone on the panel can answer 
that.
    Ms. Roman. I can start. While there have been some small 
increases for homeless assistance, the Federal housing budget 
is obviously insufficient to meet the need, and three out of 
four people who are eligible for assistance are not getting it.
    Mr. Lawson. Would anyone else care to respond?
    Ms. Oliva. And in the homeless programs in particular, the 
focus really has been on trying to ensure that the funding that 
is made available from year to year is used as effectively as 
possible. So I think that is something that is incredibly 
important for folks to recognize for the homeless programs in 
particular, that using the money that they have as effectively 
as possible is a priority.
    Mr. Rush. And just to add to that, I would say that the 
lack of resources in funding has led to, I would say, a lack of 
innovation specifically in focusing on particular populations 
that are disproportionately impacted by experiences of 
homelessness, and an investment moving forward would allow for 
some of that innovation to be able to able to specifically, and 
thinking about something like the Youth Homelessness 
Demonstration Project to be able to focus and target strategies 
towards preventing and ending youth homelessness where they can 
be applied and most necessary.
    Mr. Lawson. And, Dr. Lucas, quickly, how do you describe 
the differences between rural homelessness and inner city?
    Mr. Lucas. So, in cities, there is typically much more--the 
shelter systems are definitely more interconnected 
historically, and the density of the population certainly has a 
factor in the nature of homelessness in those places. There are 
also other opportunities in terms of employment and the rules 
for expanding housing supply that are maybe much more stringent 
historically in urban places where the costs of expanding the 
housing supply, especially for more affordable housing, can be 
prohibitive in some ways.
    Mr. Lawson. Okay. And this is another quick question, and 
anyone can respond. I run into a lot of people who really don't 
have to be in a homeless-type situation, but they want to be in 
it. How do you distinguish between those groups?
    Ms. Darley. I am going to try to answer that. If you could 
clarify, are you saying that people are homeless but they don't 
have to be?
    Mr. Lawson. Yes.
    Ms. Darley. I am going to have to beg to differ as far as 
that is concerned. People do not want to be homeless. As a 
former RN working in an emergency room in George Washington 
University Hospital, I had the opportunity to see individuals 
come in who were homeless and ill and feigning an excuse in the 
emergency room for somewhere to stay, and the answer to that 
clearly is ``no.''
    Mr. Lawson. Okay. Well, I have seen people who have family 
resources where they didn't have to be in there, but they say 
they are homeless because they did not want to be in the 
situation they were in.
    Ms. Darley. I have seen that also.
    Mr. Lawson. Okay.
    Ms. Darley. But I would say that would have to do more with 
a mental illness, where a lack in judgment is--they are not 
thinking clearly because, who would turn down a place to stay? 
But I have seen it many, many times.
    Mr. Lawson. Okay. I yield back.
    Chairwoman Waters. Thank you.
    I now yield to the gentleman from Colorado, Mr. Tipton, for 
5 minutes.
    Mr. Tipton. Thank you, Madam Chairwoman.
    Last year, a report from the Department of Housing and 
Urban Development reported that Colorado is one of the States 
with the highest levels of homelessness in America. The 
findings did highlight that homelessness slightly decreased in 
the last year, but that Colorado's rural areas are experiencing 
nationally significant levels of homelessness.
    Dr. Lucas, I would like you to speak to a couple of issues 
here. I represent many of the small towns in rural Colorado 
where affordable housing advocates have suggested the policies 
that might be relatively simple to implement in larger cities 
like Denver may not be practical or even accessible for smaller 
towns with limited resources. At the small-town level, could 
the lack of resources to be able to parse through the 
applications, proposals for the Federal and State resources, be 
a contributing factor to the nationally significant levels of 
homelessness in the rural areas?
    Mr. Lucas. Thank you for that question. If I may restate, 
are you asking if it is because of the difficulty of applying 
for those funds, that that is a barrier?
    Mr. Tipton. Yes.
    Mr. Lucas. I actually don't know that I can speak maybe 
even the best on this panel relative to others who are actively 
involved in that grant application process. It certainly is my 
understanding that there are collaborative efforts to try to 
help make this application process a little bit easier so that 
there is a joint application at the CoC community level for 
most of the targeted homelessness assistance.
    Mr. Tipton. Yes, it is interesting, you know, going through 
our district, we have homeless in very rural areas, but one of 
those big challenges is simply applying for the grants, the 
applications. You simply don't have the resources, the people 
to be able to fill them out and address really what is a really 
common concern.
    Dr. Lucas, in your testimony, you did advocate for 
increasing organizations' flexibility to use existing scarce 
resources toward innovative efforts to alleviate homelessness 
in the communities. Could you maybe expand a little bit on some 
of those innovative solutions that you would see to be able to 
address the homelessness?
    Mr. Lucas. Thank you. So there are two example of programs 
that I might mention that are sort of in some ways inconsistent 
with a Housing First-prioritized approach and in that sense 
haven't received funding in that way. One is the Doe Fund in 
New York City. This is a program that has employment as an 
integral part of the rehabilitation process for people who 
either are leaving incarceration or who have been homeless or 
who are otherwise struggling. The other is in near Austin, 
Texas, Community First, which is a program that involves 
basically tiny houses, if you have heard of sort of these very 
small units, in a more community setting actually requires the 
clients who are becoming or trying to create housing stability 
and achieve that to interact with one another in more 
substantive ways where community engagement is a more effective 
sort of rehabilitation tool that again is not required and not 
essential in the existing Housing First approach where that is 
the only requirement.
    Mr. Tipton. And I appreciate that. I had the opportunity to 
be able to go through the Doe Project, and I think it speaks to 
my colleague Mr. Barr's point in terms of trying to actually 
address the root problem of being able to get the employment so 
that people can actually afford the housing.
    But when we start talking about the affordable end of 
housing, I come from a unique State with some of the richest 
communities in the country in my district and some of the 
poorest communities in the country that are in my district.
    Under the chairwoman's proposal to be able to limit tenant 
rent contribution for the Housing Trust Fund to 30 percent of 
the adjusted income, we have heard some concerns about that. 
Ms. Roman, would this proposal challenge the flexibility of 
local areas to be able to respond to the specific needs of the 
community and potentially challenge the ability of the 
communities to be able to lock in financing for affordable 
housing projects?
    Ms. Roman. I don't know about the financing side. 
Obviously, there has to be revenue coming in, but I think the 
30 percent standard of affordability is pretty important to 
keep families and individuals from becoming homeless once they 
are in housing. If they are spending much more on housing, it 
is very difficult to pay for other things like food, 
healthcare, transportation, and so forth.
    I will just add quickly too that the homeless programs 
really, except for permanent supportive housing, don't 
subsidize people for a long time. There are employment 
programs. People have to work to pay the rent. They are not 
getting long-term rent subsidies from homeless programs, so 
they are work programs. People have to get to work to pay their 
rent.
    Mr. Tipton. Great. Thank you. I yield back.
    Chairwoman Waters. Thank you very much.
    The gentleman from Guam, Mr. San Nicolas, is recognized for 
5 minutes.
    Mr. San Nicolas. Thank you, Madam Chairwoman.
    I come from a very unique district that has a much smaller 
population than a lot of my colleagues. One of the things that 
we find is program ineligibility actually is a huge factor in 
the homeless situation that we are dealing with in my district. 
Does anybody have any input on how much of the homelessness we 
are dealing with in this country is as a result of actual 
program ineligibility, and what are some of the recommendations 
for turning those figures around?
    Ms. Oliva. Hi, thank you. I actually lived in Inarajan, 
Guam, for a period of time in my life, so I have a little bit 
of insight into how the system works there. And when you say 
``program ineligibility,'' are you talking about the homeless 
programs, or are you talking about access to affordable 
housing?
    Mr. San Nicolas. Just in general, for example, I will 
encounter homeless individuals in my district, and I will say, 
``Hey, you have a couple of kids here; you qualify for these 
programs.''
    And they will say, ``Oh, I'm sorry; we are no longer 
eligible for those programs.''
    And so we are finding that oftentimes when it comes to the 
child homelessness, that is the case where they would have 
qualified for the program, but unfortunately, due to 
circumstances that happened previously, they are no longer 
eligible, and that creates the homeless circumstances that they 
are in.
    Ms. Oliva. I think that there is a variety of things, the 
local continuum of care can partner with the housing providers 
in Guam to identify again those families or individuals who are 
sort of crossing systems to try and figure out the right 
intervention for them and where they are eligible. I also 
remember, and it might still be true, that there really weren't 
enough resources to go around across the island, so people who 
might have been eligible weren't actually able to access some 
of those resources, as well, just because there wasn't enough 
funding.
    The other thing that I might suggest is to request some 
technical assistance for the island to make sure that everybody 
understands the current rules and protocols around eligibility 
because I think what I have seen across the country is that 
sometimes folks are saying that people are not eligible, and 
Dan mentioned this, when they, in fact, are eligible.
    Mr. San Nicolas. Does anybody else have anything they want 
to contribute to the ineligibility component of the homeless 
figures?
    Ms. Darley. I wanted to say something from a personal 
experience with a friend of mine who was also waiting for 
housing, and this young lady found, that, and I found the same 
thing, that most of the services were geared towards people who 
were suffering with addictions. And everyone who is homeless is 
not an addict, though there is a tendency to go that way once 
the pressure of homelessness comes down upon an individual. But 
I have seen individuals lie or say that they will take a drug 
in order to qualify for a program that would help them because 
they weren't addicted to any drug. So I thought that was really 
unfair and that more programs need to look at families and 
individuals who don't have that problem along with those who 
do. Thank you.
    Mr. San Nicolas. Okay. Thank you.
    Another question I had was, Dr. Lucas, you mentioned in 
your remarks creativity as an option for getting more solutions 
on the table, and, Mr. Rush, you also mentioned innovation. I 
want to kind of open it up to the panel, does anybody have any 
specific regulation or specific rule or specific limitation 
that could be addressed legislatively that would actually 
unlock this creativity or this innovation that we want to be 
able to encourage with our service providers? I am sure 
everybody gets together and sits at the table and says, ``Man, 
if I only I could get to do this, then I would be able to solve 
that.'' What is holding back some of this creativity and 
innovation?
    Mr. Rush. I think that to an earlier point and the question 
of what we can do to address the disparities that exist as it 
pertains to homeless, I and my organization are very much 
advocates of, there needs to be additional training for service 
providers. And this is a notion that you see across public 
health, this idea that when someone is coming in to receive 
service provisions, we need to make sure that if they are most 
impacted, that the service providers are able to provide 
culturally responsive and linguistically appropriate care. And 
that pertains to LGBTQ individuals. That pertains to people of 
color. So I think that if we could enact anything from a 
legislative standpoint, it would be some type of requirement 
that service providers receive additional training around 
cultural competency and linguistically appropriate care.
    Also, when thinking about--I am not sure there is a 
legislative approach to this, but a gender--the equal access 
and gender identity rule was--I think I am running out of 
time--was implemented in 2016, but I think the actual 
enforcement of that will get to some of the issues around 
violence as it pertains to transgender individuals.
    Chairwoman Waters. The gentleman from Texas, Mr. Williams, 
is recognized for 5 minutes.
    Mr. Williams. Thank you, Madam Chairwoman, and thank you to 
the witnesses for being here. In full disclosure, I am a small 
business owner in Texas. I am a capitalist. And Fort Hood, the 
largest military base in America, is in my district.
    Now, a question I have, has anyone here on the committee 
hired a homeless person before? I have. In my 45 years of Main 
Street experience, I have found that homeless individuals have 
always had a positive return on investment, and the people who 
accepted my job offers didn't want government help. They didn't 
want government guarantees. They simply wanted an opportunity 
and a paycheck.
    Dr. Lucas, what is the most effective way to provide 
employment and housing resources to individuals in order to get 
them back on their feet and providing for themselves?
    Mr. Lucas. Thank you for that question. Certainly, as you 
mentioned, there are many individuals who are able to make a 
positive contribution from an employment perspective, 
absolutely, and that is something that creates value both for 
communities and also for those individuals, of course, and to 
facilitate housing stability. And so the easier it is for 
organizations and small businesses, for example, to hire 
individuals potentially, for example, for a wage that is--where 
that is a profitable thing to do, that aligns the incentives of 
those in need and those looking to hire, as well.
    Mr. Williams. Things like tax cuts, things like training 
programs and skill training all help, don't they?
    Mr. Lucas. It is possible. I haven't seen the evidence on 
this.
    Mr. Williams. When it comes down to it, the best way to 
solve homelessness is to give people a job--we have talked 
about that--and the skills to succeed. We need our Federal 
housing policy to work together with our booming economy to 
unlock human potential. If we continue to build a strong Main 
Street America, support small businesses, and build wealth 
through taking risks and reaping rewards it will help 
immensely, I believe, in solving this problem. The Department 
of Labor released a report this week that said there were 7.3 
million job openings in December. So, again, Dr. Lucas, what 
are the major hurdles in connecting the homeless population 
with some of the 7.3 million job openings in this booming 
economy that we have?
    Mr. Lucas. One of the challenges for labor markets, just 
like housing markets, is the physical location of those 
relative to the people in need. It certainly is true that, for 
the homeless population, this is a very localized situation. 
For example, California has 47 percent of the unsheltered 
homeless population in that State alone, and in warmer States 
there are about two-thirds and the 10 warmest States of the 
unsheltered population. And so sort of allowing the market 
system to be flexible in responding to where those needs are 
greatest and where the opportunities are greatest to provide 
affordable housing, to provide employment, seems like something 
that is not as directly a policy outcome in some ways as a 
functioning society.
    Mr. Williams. Okay. Well, another question, in your 
testimony you state that the Housing First plan is often cited 
as the way to solve homelessness. It sounds as if the Federal 
Government is trying to centralize this function at the top of 
the Federal Government and stifle innovation. Now, from my 
experience of 45 years in being in business, the government's 
one-size-fits-all solutions rarely work for complicated 
problems. So quickly, can you give us an example of an 
alternative solution that you believe should be explored in 
greater detail?
    Mr. Lucas. Thank you for that question, and as was 
mentioned, there are a range of programs that are funded 
through this targeted homelessness assistance, so it is not 
only the Housing First programs that have been funded, however, 
as was also mentioned, there is increasingly prioritized 
funding for organizations that are adhering to the Housing 
First approach that are delivering long-term permanent 
supportive housing programs.
    And so the opportunity that comes with the availability of 
data at the community level on housing retention and whether 
programs are working is to actually reward that performance 
rather than reward compliance with the types of shelter that 
have been shown to work in certain particular areas.
    Mr. Williams. Okay. One final question, there are 
legitimate reasons for people who need housing assistance, and 
there are people with physical and mental health problems. We 
all know people in between jobs who fell on hard times and for 
many other reasons. With that being said, Ms. Oliva, is there a 
point where we should determine that people simply want 
benefits without having to work?
    Ms. Oliva. There is obviously, as you mentioned, a wide 
range of people who are experiencing homelessness in any given 
year, and the implementation of strategies like coordinated 
entry help communities to determine who can go into what 
programs or who should go into what programs based on their 
needs. And the most expensive types of interventions are really 
for the folks who are most vulnerable.
    Mr. Williams. Thank you. I yield back.
    Chairwoman Waters. The gentlewoman from Michigan, Ms. 
Tlaib, is recognized for 5 minutes.
    Ms. Tlaib. Thank you, Chairwoman Waters.
    It is interesting, so my son is home from school, you 
probably hear about the weather and snow days, and sometimes I 
send him a link and say, ``I am in committee.'' And he read one 
of the--you will appreciate this, Madam Chairwoman--slides and 
said, ``13 billion? Why haven't we done it yet?''
    And I just think that sometimes even a 13-year-old kind of 
gets it and is coming from, the purest of hearts and 
understanding the critical importance of it.
    But, one of the things coming from the nonprofit sector, I 
worked over 10 years, from wraparound services around 
affordable housing, what low-income housing aims--the 
definition sometimes even on the State level can differ. But it 
was very clear from those who worked for decades on this issue 
that jobs won't solve homelessness; housing does. And looking 
at my district, which is the third poorest congressional 
district in the country, we have seen such a hike in the rise 
of housing costs. You know, a lot of us, you will hear many of 
my colleagues use the words, ``middle class.'' For us it is 
working families, working class. These are individuals that 
many of us have contact with almost every single day, not 
realizing the person who is at the coffee shop, the person who 
is at maybe the parking garage, the person--those are the 
individuals who really are at jeopardy of being in the cycle of 
poverty and leading to homelessness.
    When President Trump signed what I call the millionaire 
welfare bill, he weakened the low-income tax credits, which has 
been the primary tool in promoting affordable housing. Do you 
all agree?
    Okay. Everybody is nodding yes.
    So one of the experts estimates that the millionaire 
welfare plan is leading to a reduction of new affordable 
housing by 235,000 homes over the next decade. They said just 
the pause button of 2 years did that of saying and reducing, 
again, the attractiveness of low-income housing. And they say 
that 11 million residents, and this is where I think a lot of 
my residents come in, is most of our fellow Americans are rent-
burdened right now because they are spending more than half--11 
million of them are spending half of their income on housing 
for rent. And currently, even with the shortage of, I think it 
is 7.4 million--of affordable homes--7.4 million affordable 
homes is needed right now. Again, there hasn't been this 
attractiveness to it because of this millionaire welfare plan. 
It really has shocked kind of the market of the attractiveness. 
Can any of you speak about that and talk about what that has 
done in the last 2 years?
    Ms. Roman. It is complicated what the tax bill did to 
housing. But I will say that homeowners are very much 
advantaged in our tax system in terms of the amount and the 
percentage of them who get assistance through the Tax Code 
versus the amount that we spend for renters.
    And we really are not--even if you have the low-income 
housing tax credit, you still have to provide rental assistance 
for the people that we are all here talking about who are at 30 
percent of area median income and below.
    So anything that affects supply or the cost of capital in 
addressing the supply of affordable housing is going to result 
in more people being at risk of homelessness.
    Ms. Tlaib. It was actually President Ronald Reagan who 
passed--did you all know--the low-income tax housing--it is 
incredible to read that he birthed this approach, this, what I 
would call, win-win in many ways. And, again, it supports what 
you all are trying to do on the front lines of making it 
attractive to developers, of course, but also creating really 
safe environments for affordable housing to exist.
    And even to some of my colleagues, having one of the most 
beautiful, Blackest cities in the country, the City of Detroit, 
where 70 percent of my residents currently are paying over 30 
percent of their income towards rent, there truly is 
increasingly becoming a crisis that is leading to a crisis in 
education, a crisis in so many other areas because we haven't 
been able to deal with this homelessness problem in our Nation.
    So I just really want to thank all of you for being here. I 
know I am--time is very limited.
    My brother helps veterans through the Earn and Learn 
Program. Homeless vets come through, and they go through the 
affordable housing in Detroit. It is amazing. And he will go 
through this program.
    And then my sister, and my colleague would appreciate this, 
helps victims of sexual assault. I am the eldest of 14, so you 
kind of get a lot with my family. But one of the experiences 
they said is, ``housing, Rashida, housing, housing,'' all the 
time; they are constantly advocating for--
    Chairwoman Waters. The gentlelady's time has expired.
    Ms. Tlaib. Thank you so much.
    Chairwoman Waters. The gentleman from Ohio, Mr. Davidson, 
is now recognized for 5 minutes.
    Mr. Davidson. Thank you, Madam Chairwoman.
    And thank you to our witnesses. I appreciate your expertise 
and your passion for helping us deal with this critical issue 
for our country and for those affected by homelessness.
    Ms. Roman, in your opening remarks, you mentioned some of 
the racism that has been a part of that. And I am just curious, 
if you look at Federal housing policies going back to the New 
Deal, certainly in the era of segregation, to what extent have 
they contributed to homelessness?
    Ms. Roman. Oh, definitely, they have contributed to 
homelessness. And that is why the housing discrimination and 
why the Fair Housing Act is so important today. African 
Americans are still--there is plenty of evidence--being 
discriminated against in housing.
    Mr. Davidson. Thank you for that. And I appreciate the 
reference.
    Do you feel like all the work to reform those programs that 
needs to be done has been done?
    Ms. Roman. No, I don't feel that all of that has been done.
    Mr. Davidson. Do you feel that Congress is likely to solve 
that in a collaborative way in the near future?
    Ms. Roman. I have my fingers crossed.
    Mr. Davidson. Well, I do. as well.
    I have been a little discouraged about our problem-solving, 
and so I am working on a bill called The People CARE Act. And 
it proposes a bipartisan commission, four Republicans, four 
Democrats. They get a year to work together, and they have to 
come up with a proposal that Congress must vote yes or no on. 
So not just a study but really something that would be binding.
    And as I worked with social workers across my county and 
now my congressional district, they were frustrated because 
when they wanted to help people, they were often in the 
position where they were simply administering programs. And 
they were, frankly, by statute sometimes, prevented from doing 
what they wanted to do, which is person-centered, looking 
holistically at what are the issues affecting this.
    And so, Mr. Lucas, when you say there is no clear answer on 
a solution, I would say that each solution might be a little 
bit different. You really do have to get to know the person. So 
I think it is important that we do this reform, and we enable 
our local caseworkers to understand how to use the programs.
    The other problem is we have 92 means-tested programs. A 
fair number of those are housing programs. I spoke with one of 
my colleagues, Mr. Cleaver, about this, and his experience in 
Kansas City. Some of them work a little better than others. 
Some of them are easier to get the money spent. And other ones 
have more rules and restrictions. So the goal here would be to 
empower the commission to recommend, without launching any new 
programs and also without cutting any of the spending, to 
redesign them so that you could make use of the purpose without 
as many burdens--92 programs, a caseworker looking at a 
bookshelf of 6-inch binders for each of them.
    The other one is some of them come with benefit cliffs, and 
you could redesign those. So I am not confident that we are 
going to be able to get--even one program at a time would take 
92 years for Congress and a heroic effort. So my hope is that 
we can find people who are willing to collaborate on that. We 
found great support through Ohio and our job and family 
services, through all of Southwest Ohio's United Way efforts.
    And the goal here is to use Brookings' data and do what, in 
the long run, will help people is, yes, a job at a wage above 
the means-tested line. But homeless people are having a hard 
time even accessing the assistance programs. I believe 
passionately that no one should be turned away from these 
programs simply because they came in through the wrong door. So 
it is, I think, vitally important we empower caseworkers.
    Have you seen anything like that work, Ms. Roman?
    Ms. Roman. Actually, in Columbus, I think historically on 
the homeless side, there has been--it has been a very well-
organized system that combined sources.
    There is a big challenge--homelessness--the homeless system 
can't solve this problem all by itself. And the mainstream 
programs that you have referenced have to be part of preventing 
it and addressing it. And it is very difficult, as witnesses 
have said, to coordinate those.
    So I think your help in simplifying them so they can be 
coordinated but are still powerful and effective would be 
welcome.
    Mr. Davidson. Okay. Thank you.
    And as all of our panel have input, certainly with the 
housing programs, I think we are on to something.
    I do have questions about the idea of simply spending more 
money. The reality is we are spending $10 billion more--last 
year, we spent about $10 billion more at 3.7 percent 
unemployment than we spent back when we had 10 percent 
unemployment. I do believe that there should be some 
correlation, where as the economy improves, there would be less 
need.
    And my time has expired, so I yield back.
    Chairwoman Waters. Thank you.
    I now call on the gentlelady from California, Ms. Porter. 
She is recognized for 5 minutes.
    Ms. Porter. Thank you, Madam Chairwoman.
    Ms. Roman, what research or recommendations do you have on 
how best to site both shelters, rapid rehousing programs, and 
permanent supportive housing? And what kinds of services should 
be provided in order for these programs to be most effective 
where Orange County is experiencing--is the second highest 
homeless rate in the country for a city of its size, and we are 
in the--we are trying to expand our services, and any insights 
you can provide on how best to locate those in terms of sizes 
of shelters, numbers of resources. We are going to put them 
close to schools, transit, jobs, healthcare, all of the above; 
I would really appreciate your recommendations.
    Ms. Roman. Thank you for your question.
    I don't have a simple answer for that. There is not, I 
don't think, a lot of, if any, research on siting. I do think 
that people--that it is better to site near transportation and 
not to separate people. I think that is an important thing.
    Bigger shelters. There are some okay bigger shelters, but 
smaller shelters seem to function better. I think one of the 
one principal thing I would--or two principal things about 
that, shelters should be low barrier. We are finding that a lot 
of the unsheltered homelessness is because people won't come 
into shelters because of the rules we need to get them in.
    And at the same time, you are planning the shelter entries 
to make that more congenial to people and making the shelter 
more helpful, you have to, at the same time, be planning the 
exits. So a lot of places put too much emphasis on the front 
door, and none on the back door. And we don't get anywhere with 
reducing the numbers.
    Ms. Porter. Thank you very much.
    Mr. Lucas, in your general knowledge as an American, do we 
know how to prevent or stop people from getting breast cancer?
    Mr. Lucas. Not to my knowledge.
    Ms. Porter. Me, either. Okay.
    In your general knowledge as an American, do we have 
treatments that can stop the advance of breast cancer and cure 
individual people?
    Mr. Lucas. I believe so.
    Ms. Porter. Okay. I fail to see how homelessness is 
different. So the research seems clear to me that we know, for 
any given person who is experiencing homelessness, that we know 
that a Housing First permanent supportive housing approach can 
aid that person or that family and put them on a path to more 
productivity and better well-being. It is clear to me that just 
because we do not know how to cure--how to prevent people from 
obtaining breast cancer, we would not say we should not treat 
those who are suffering. And I fail to see the difference here.
    I take your point to be--and this is not a question, but I 
take your point to be that we cannot prevent the occurrence of 
homelessness merely through supportive housing. We must expand 
the number of units of affordable housing. And I think that is 
entirely consistent with what the entire panel has been 
emphasizing today.
    So I would just--my view on this, and I appreciate the 
witnesses and their thoughtful comments, is we must do both. We 
must fund, as we do, research to prevent the incidence of 
cancer but also treat those who are dealing with its hurtful 
effects. And I see no reason to be different as we think about 
homelessness.
    My question is for Ms. Oliva or Ms. Roman, either one. In 
Orange County, we are finding that the heaviest service users 
are costing us about $450,000 a year. And that is about 10 
percent of our population. But if we put those heaviest users 
into permanent supportive housing, the cost goes down to 
$55,000. So that is a nearly $400,000 per person savings.
    When we go to deploy, as I hope we do, a Housing First 
permanent supportive approach, how can we make sure that as 
these grants and resources go out, that agencies focus on the 
heaviest users who will most benefit the system from getting 
permanent supportive housing? How could we incentivize that?
    Ms. Oliva. I think there are a few ways to do that. And the 
first is to make sure the folks who need to share data are 
sharing the data at the local level. I know CHS supports a 
variety of communities around the country to identify frequent 
users of systems like the healthcare system or the jails along 
with homelessness so that they can really identify who those 
frequent users are and target--what I--I mentioned this 
earlier. The most expensive resource with the highest level of 
services should go to the folks who are most vulnerable and 
have the highest level of needs, so--and you can do that 
through a process that is called coordinated entry.
    Coordinated entry is something that is being implemented 
across the country so that people have a fair and prioritized 
kind of access into the homeless service system and that there 
is a system to identify the needs of any individuals or 
families coming forward.
    Chairwoman Waters. The gentlelady's time has expired.
    The gentleman from Tennessee, Mr. Rose, is recognized for 5 
minutes.
    Mr. Rose. Thank you, Chairwoman Waters. I appreciate you 
calling this hearing and the insightful testimony that we have 
heard today and the responses to the many questions.
    I am new to the Congress, and I want to thank the 
distinguished panel for taking the time to be here.
    My faith is very important to me, and my faith tells me 
that the homeless, the poor, will always be among us and that I 
am called to lend a helping hand and to take them in. And so 
that informs my view of this issue to a great degree.
    I also look at the Constitution. And as I ran for this 
office, I often quoted to the people in my district that 
Article I, Section 8, enumerates the powers of this Congress. 
And when I look to Article I, Section 8, I don't find housing 
or the homeless as one of the areas that the Congress is 
empowered to deal with. And so then I reach the view that 
probably that is a power and a duty that is left to the States 
and to local governments.
    So that is where I would start with this issue, that I 
believe I am personally called, as I believe we all are, to 
help the poor and to help the homeless. But I am not sure that 
is a duty of the Federal Government.
    However, having reached that point, I do think that there 
probably is a role for the Federal Government to play. And so, 
Dr. Lucas, I want to address this to you.
    It seems to me, as I look at one of the graphics that has 
been displayed today, that I see that the rate of homelessness, 
if the data are accurate, is higher in some areas of the 
countries than others. And if I look, I see that the West Coast 
and some areas of the upper East Coast demonstrate higher rates 
of homelessness. And I wonder if you could speak for just a 
moment to the accuracy of that data and whether it informs us 
in any way about the root causes of homelessness.
    Mr. Lucas. Thank you for your question.
    The data that you are describing are the annual point-in-
time counts that are published by HUD each year and since 2005, 
as was mentioned.
    So what these counts do is they count one at a point in 
time in January each year how many people are homeless 
enumerated both in terms of within shelters and then on the 
street. And that street count occurs through volunteers and 
social workers and police and communities coming together to 
attempt to count.
    So what it tells us is--it does give us a snapshot of at a 
point in time with, over time, increasing accuracy--although 
there are still challenges with that--how many people are 
experiencing homelessness on one night.
    It doesn't tell us anything about the amount of 
homelessness, the flow of homelessness, if you will, people who 
are becoming homeless over time. And so those are very two 
different important parts of the data, and both of them vary 
considerably across communities, as you mentioned, both the 
prevalence and the rate at which people might come to 
experience homelessness.
    Mr. Rose. Is there anything in the data or the research 
that has been done that would explain the disparities in the 
rate of homelessness across the country?
    Mr. Lucas. We certainly have several papers that have 
linked housing affordability and housing market conditions to 
the prevalence of homelessness both within California and then 
nationwide in the connections to State use--State land 
regulations as well. So those conditions are there.
    But at the same time, there has also been some recent work 
trying to understand the uncharacteristic increases in 
homelessness in Los Angeles and New York City, which those 
communities have seen much more homelessness over the last 
several years whereas--even though homelessness has fallen 
overall.
    And the best answers of this based on economist Brendan 
O'Flaherty summarized the literature basically saying that we 
don't actually know all the reasons why some of these 
communities have seen the trends that they have seen despite 
massive increases in expenditure from Federal and local levels 
in each of those communities to expand the--at least targeted 
homelessness programs.
    Mr. Rose. With the time we have remaining--or I have 
remaining, is there anything in the data collection arena that 
you might suggest that we do to help to explain those 
differences or to gather better data?
    Mr. Lucas. One of the things that Ms. Roman mentioned is 
who is being served in each program and what the barriers are 
to being served. Certainly, if we have a better understanding 
of how those programs are operating with the specific people 
and the needs that are faced by the individuals being served, 
we can have a better sense of whether or not they are achieving 
housing retention at rates that are consistent with what we 
might expect for the challenges that those individuals face.
    Mr. Rose. Thank you, and I yield back.
    Chairwoman Waters. The gentlewoman from New York, Ms. 
Ocasio-Cortez, is recognized for 5 minutes.
    Ms. Ocasio-Cortez. Thank you, Chairwoman Waters.
    Ms. Darley, I sincerely appreciate how illuminating your 
testimony was, particularly when you highlighted who was in the 
shelter system with you.
    Did I hear you correctly when you said that there were 
doctors, and journalists from The Washington Post, in these 
shelters with you?
    Ms. Darley. Yes, that is correct. You heard correctly. 
There were other professions. I remember them because it was so 
unexpected, but, yes, the 3-month stay that I had there, 
definitely.
    Ms. Ocasio-Cortez. So there were people who were gainfully 
employed, who were in the system with you?
    Ms. Darley. Actually, 75 percent of the homeless population 
is employed, believe it or not. But because shelters are 12-
hour systems where you are allowed in for 12 hours and out, 
they are not conducive to work.
    Ms. Ocasio-Cortez. So 75 percent of the people in these 
shelter systems already have a job and they are working?
    Ms. Darley. Yes. A job or an income, i.e., Social Security 
or something of the like, yes.
    Ms. Ocasio-Cortez. And so, I think we have identified large 
causal factors, whether it is the racist legacy of our criminal 
justice system, whether it is women who are systematically paid 
less on the dollar than men leaving domestic violence 
situations that can't afford their own rent, whether it is the 
great need to invest and improve our child welfare system so 
that we are not emancipating, as was stated, children into 
homelessness, and also the great need to acknowledge our 
Nation's mental health and overall health crisis, especially as 
it pertains to our country's veterans but really to citizens 
overall.
    But one thing that I see is that one big factor that we are 
seeing that contributes to homelessness is just that the math 
doesn't add up, is that wages are too low and rent is too high, 
for a very large amount of reasons.
    I represent New York City, which is currently experiencing 
the highest rates of homelessness since the Great Depression. 
And we have heard a lot about the demand for housing, but we 
have not heard enough about the supply of housing overall. And 
one thing that I find interesting is that, according to our 
housing and vacancy survey, there were 250,000 vacant 
apartments in New York City as of March of 2018--250,000 vacant 
apartments. And even at the highest rates since the Great 
Depression, 63,000 people experiencing homelessness. So that is 
four empty apartments for every one person experiencing 
homelessness in one of the most populous cities in the world.
    So, when we break that down, we see about 80,000 of them 
are being renovated; 75,000 of them are not even being occupied 
full time. And what we are also seeing is that, due to 
deregulations in our housing market, deregulations in taxes is 
that a very large amount of high-income foreign buyers are 
taking up a large amount of this inventory which is displacing 
full-time New York City residents, American citizens, permanent 
residents and so on, people who are actually living in our 
community.
    So my question is--and we are seeing also, since 2008, 
roughly 30 percent of the condo sales in Manhattan developments 
have gone to purchasers with overseas addresses. So we have 
local people, our people, who are not housed, and foreign 
multimillionaires or billionaires who are buying their third, 
fourth, or fifth home. So I think this is really a question 
about priorities and where do we prioritize housing people in 
America as opposed to giving a foreign multibillionaire or even 
an American billionaire their fifth penthouse.
    So my question is to Ms. Oliva. Where are some of the 
issues that you think we--solutions that we can point to in 
addressing that?
    Ms. Oliva. It is a really important topic because there are 
cities across the country, not just New York, who are--who have 
a very mismatched vacancy--number of vacancies and the types of 
vacancies that they have in their city. In the District, we are 
experiencing that right now. The types of vacancies that are 
available are well outside of the affordability range for 
people who are experiencing homelessness in the city.
    So communities are doing things like trying to figure out 
how to do shared housing so that families or individuals can go 
in together on a two-bedroom unit or a three-bedroom unit and 
share the cost of that housing.
    Other communities are looking at landlord engagement as 
something that they really have to step up in order to get the 
number of units that they need over time.
    Ms. Ocasio-Cortez. Thank you very much.
    Chairwoman Waters. The gentleman from Ohio, Mr. Gonzalez, 
is recognized for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Madam Chairwoman.
    First, I want to say to my colleagues what an honor it is 
to be serving with you on this committee this Congress, and I 
look forward to working with you on some of the most pressing 
problems facing our Nation. My commitment to each of you is to 
be a productive partner who will always work to find common 
ground in improving the lives of our constituents whom we are 
so fortunate to represent.
    I want to thank you, Madam Chairwoman, for holding this 
hearing today. And thank you to our witnesses for their 
testimony and for so diligently answering these hours of 
questions.
    I believe that every person on this committee, certainly in 
this room and watching on TV across our country, sincerely 
wants to see homelessness end in America. In nearly every 
community in the country, we have people suffering from 
homelessness while passionate citizens and taxpayers work 
tirelessly to solve the issue. It is not for a lack of empathy 
or compassion that we have homelessness today.
    Just yesterday, I visited with a constituent in my office 
who shared the story of her roommate's family who had been 
driven from their home and now have to shack up in the dorm 
with the students. So this is a big problem, and I thank the 
panel for their work in helping resolve this issue.
    As with all big problems, I believe we need to start with a 
compassionate heart and a sound mind that prioritizes evidence 
and data while addressing root causes as we consider solutions 
to our challenges.
    As I review the legislation before us and I look at the 
publicly available housing data that we are seeing on the 
screens around us, I see some troubling signs. From 2014 to the 
present day, we have increased spending by 15 percent to 
address homelessness. But homelessness has decreased by only 
around 4 percent in that time period. That is, it has actually 
slightly increased in the last few years.
    Additionally, we see, in cities with the highest 
concentration of homelessness, San Francisco, New York, Los 
Angeles, that homelessness has increased to truly crisis 
levels, despite good-faith efforts from all levels of 
government and additional spending. I believe the evidence is 
clear that simply throwing more money at the problem is not the 
cure-all that we would probably like to believe. The problem is 
not purely financial. It is structural. It is systemic. And 
much of the work we need to do exists outside the purview of 
this committee.
    My hope is that today's discussion is the beginning of a 
much deeper conversation that does not start with a prebaked 
solution but that works to identify root causes and impediments 
that our people face as they seek to avoid and alleviate 
homelessness across the various communities that we are so 
fortunate to represent.
    So, with that, my first question goes to Dr. Lucas.
    Roughly, how much do we spend per year on Federal 
homelessness programs? And how confident are you that the 
additional funding being discussed today would permanently end 
homelessness in America?
    Mr. Lucas. The U.S. targeted homelessness assistance budget 
was $6.1 billion in 2018. And that has basically doubled since 
about 2008 or so when it was in the, sort of, mid--right around 
$3 billion a year in spending.
    And then the answer to your question, one of the things 
that is important to remember is that people continue to face 
challenges and may become homeless in the future. And so even 
ending it for those who currently experience it will not be 
sufficient to end homelessness for the rest of our Nation, of 
course.
    Mr. Gonzalez of Ohio. Thank you.
    A 2016 President Obama White House housing development 
toolkit highlights the impact that local barriers play in 
reducing housing affordability for working families, 
specifically in New York, Los Angeles, and San Francisco. The 
report goes on to say that HUD's existing project-based and 
housing choice vouchers could serve more families if the per 
unit cost wasn't pushed higher and higher by rents rising in 
the face of barriers to new development. That is a quote.
    In addition, the city of San Francisco, despite a homeless 
epidemic, built 17 percent fewer homes last year than the year 
before. The California Department of Housing projects 
California would need to build roughly 180,000 homes per year 
to keep prices stable. They built less than half of that. The 
LA Times wrote an op-ed in May 2018 titled, ``California's 
housing crisis reaches from the homeless to the middle class--
but it is still almost impossible to fix.'' The reason that 
they cite is because State and local development laws make it 
incredibly difficult to bring new units online.
    Dr. Lucas, what sort of impact do local zoning barriers and 
land use restrictions have on access to affordable housing? And 
is it safe to assume that a significant portion of the funding 
within the proposals discussed today would go to States and 
localities that have these more stringent local barriers?
    Mr. Lucas. To my knowledge, the funding allocations have no 
relationship or are not influenced by the State of local 
regulations on--toward housing. The point that you have gotten 
to is, as was mentioned earlier, there is a difference between 
it is worth thinking about the demand for housing but also the 
supply and the barriers to financing that.
    Mr. Gonzalez of Ohio. Thank you, and I yield back.
    Chairwoman Waters. The gentlewoman from Massachusetts, Ms. 
Pressley, is recognized for 5 minutes.
    Ms. Pressley. Thank you, Madam Chairwoman. And I thank all 
of my colleagues for their robust line of questioning. I want 
to thank the chairwoman for her leadership for making this the 
first issue that we are tackling as a Full Committee. It is an 
issue of consequence to all of our districts and certainly to 
the country. And then I thank each of you for the work that you 
do every day and for your expert testimony provided.
    In my faith tradition, we often say, ``There but for the 
grace of God, go I.''
    And it seems that increasingly so, certainly in the 
Massachusetts Seventh, the district I represent, and throughout 
the country, people are an incident, a circumstance away from 
experiencing homelessness, a fire away, a medical bill away, a 
paycheck away, certainly exacerbated by this most recent 
Federal Government shutdown.
    And so it is so important that we--as you have addressed, 
these are not issues that we can tackle with a silo. There is 
an intersectionality and a complexity here that does require a 
holistic and comprehensive response.
    It was mentioned earlier that we are in the midst of a 
booming economy. Although there are more people employed than 
ever before, most of them are underemployed. So, really, on the 
precipice of dire straits economically in experiencing 
homelessness.
    Due to the robust line of questioning, a number of my 
questions have already been asked, so I just want to ask a 
couple of things that I didn't hear, and I hope I didn't miss 
when I stepped out of the room. So, if you have to be 
repetitive, I do apologize.
    I wanted to talk about what we are doing to support those 
who aim to successfully reenter into society. In Massachusetts, 
30 percent of our chronologically homeless are those who were 
previously incarcerated. In fact, many of them are being 
released from correctional facilities to shelter. While, at the 
same time, we know that the number one driver of recidivism is 
unemployment. And so how can someone make a positive 
contribution and pursue employment if they do not even have a 
shelter or a home.
    I know there are some models throughout the country that 
are being explored due to discriminatory housing policies that 
are often barring those who have previously been incarcerated 
from reuniting with their families, especially if they are in 
public housing.
    And so I am just curious as to what your thoughts are about 
how to address the needs of this chronically homeless 
population to ensure that they can get on track to making a 
positive contribution and not have their hands forced.
    I think New York had a model. I am just curious what you 
think about housing specifically for those reentering.
    Ms. Roman. Well, in particular, for people who have mental 
health issues or mental health and substance--behavioral health 
disorders, I think targeting people reentering for permanent 
supportive housing has been a very effective thing. Another 
dimension of that to recognize is that people are often 
criminalized for their homelessness. And then they get a 
criminal record, and those records then stop them from being 
able to get units and also to get jobs. So some way to address 
the record's history and so forth I think would also be 
important.
    Ms. Pressley. Okay. And then, secondarily, in terms of 
while people are in shelter and ensuring that those spaces are 
safe, I know that Secretary Carson had withdrawn a rule that 
would have required HUD-funded homeless shelters to uphold 
certain Federal protections for LGBTQ individuals. So, what can 
we do to ensure that HUD is upholding its mission to ensure 
equal access to safe and affordable housing? And then my 
question on training for staff in terms of linguistics, 
cultural competency, sexual orientation, gender identify 
sensitivity, is that something that could be cost-neutral?
    Mr. Rush. To answer your initial question, yes, the equal 
access and gender identity rule, which went into effect in 
2016, I think that there have been some of your colleagues who 
have made a request to Secretary Carson over at HUD about the 
enforcement of that. There were some resources that were taken 
down from the HUD website, and there has been a lack of 
guidance around what that looks like for creating inclusive 
spaces.
    We as an organization do a lot of work around making sure 
that gender pronouns are recognized, that intake forms are 
representative of peoples' gender identity.
    I think that in regards to training, there are free 
trainings that currently exist, specifically my organization 
has a true inclusion toolkit that addresses how service 
providers can create more inclusive and safe spaces for LGBTQ 
individuals. So there are resources that exist.
    Chairwoman Waters. The gentlelady's time has expired.
    Ms. Pressley. Thank you, Mr. Rush.
    And thank you, Madam Chairwoman.
    Chairwoman Waters. The gentleman from Wisconsin, Mr. Duffy, 
is recognized for 5 minutes.
    Mr. Duffy. Thank you, Madam Chairwoman.
    Welcome again, panel. There are a number of issues that I 
want to get to, including zoning. I want you to talk about 
programs that work and don't work. I also want to talk about 
foster children.
    But, first, I know it is not up here right now, but I have 
to tell you, that beautiful Gerald R. Ford looks a lot like 
freedom to me, what defends liberty and freedom and democracy 
for this country and many others in the world. So to say we 
don't want to have a military to protect that is concerning to 
me.
    But that is a conversation about money, right? And if I ask 
the panel, would you all say the main theme here is, ``We need 
more money?'' You are asking for money? Yes? Is that what you 
are--Ms. Roman is saying yes, and no one else is taking me up 
on that.
    You guys are saying money? I am from Wisconsin. You are 
talking about cheddar, right? Yes, you want money.
    And so, I looked at Ms. Darley's story, and I thought it 
was a remarkable story of success, of hardship. I can't imagine 
the hardship that you went through when you got that kind of 
world thrown at you, and you made it out. But you are here to 
tell the story of how hard it is, and I appreciate that.
    You think we need more money for these programs, right?
    Ms. Darley. Not necessarily. I am not saying that money 
wouldn't help. But I am a strong advocate for innovation, and 
that is because I get a chance to talk to a lot of the young 
people around this country, and they give me crazy, awesome 
ideas--
    Mr. Duffy. I love that.
    Ms. Darley. --as to how this could have--some have put into 
their own plan. One young lady did a coat, which turns--she, a 
19-year-old, designed it for the homeless. It is a coat that 
turns into a backpack that turns into a sleeping bag. So I am 
just saying innovative thinking and the opportunity to do so--
    Mr. Duffy. You are speaking my language.
    Ms. Darley. --would be the key.
    Mr. Duffy. I totally agree.
    Mr. Stewart, are you a veteran?
    Mr. Stewart. No, sir, I am not.
    Mr. Duffy. But you represent a veterans group?
    Mr. Stewart. Absolutely.
    Mr. Duffy. And do you think we should prioritize veterans 
over other homeless individuals?
    Mr. Stewart. I would say that it has been successful where 
we have done that across the country.
    Mr. Duffy. So you are saying, yes, we should prioritize 
veterans?
    Mr. Stewart. Yes.
    Mr. Duffy. Would the panel agree with that?
    Yes or no, quickly?
    Ms. Oliva. I don't think it is a yes-or-no question. I 
mentioned earlier I think that we need to be able to walk and 
chew gum at the same time.
    Mr. Duffy. But if we have homelessness and we only have so 
many slots and so much money, should we prioritize the men and 
women who serve this country? Yes?
    Ms. Oliva. Highly vulnerable men and women who serve this 
country--
    Mr. Duffy. Should be taken care of?
    Ms. Oliva. --should be taken care of.
    Mr. Duffy. So, when we look at our veterans, are they all 
in homes, or do we have homeless veterans right now?
    Mr. Stewart. Our best estimate has that we have 37,878 on a 
given night.
    Mr. Duffy. Veterans who are homeless?
    Mr. Stewart. Yes, sir.
    Mr. Duffy. So I look at the money side of this. And the 
point I am getting at is we are talking about aircraft 
carriers, right? Let's not invest any more in liberty, freedom, 
and democracy, my view. But if we were able to take, let's say, 
$45 million and plug it into a State, could that actually do 
some good for our veterans in a State if we are able to give 
$45 million for homelessness?
    Mr. Stewart. The history has shown that that has been the 
case, yes, sir.
    Mr. Duffy. How about $1.3 billion? Would that help? $1.3 
billion in one State.
    Mr. Stewart. Yes, sir.
    Mr. Duffy. So what I am getting at is, do you know how much 
we spend on illegal immigration?
    So why do we prioritize people who don't come here lawfully 
ahead of our veterans, ahead of people like Ms. Darley who find 
themselves on hard times?
    California alone spent $45 million on legal services for 
illegal immigrants, and we have homelessness in America. 
Veterans are homeless in America. $1.3 billion, a total cost, 
for 2 years in California. $1.3 billion, and we said we 
prioritize homelessness?
    I am all about making sure we have resources to help people 
out. But when we have veterans on the street, why don't we take 
the Federal, State, and local money and work on homelessness? 
You want cheddar. That is where the money is at, isn't it?
    Let's make sure that we don't have any Americans who sleep 
under bridges. Any veterans who serve this country but sleep on 
the streets, before we give money for all these other 
programs--does anyone disagree with that? Should we put illegal 
immigrants ahead of U.S. citizens or veterans? Does anyone 
disagree with that?
    We should put our people first, right?
    Who disagrees with that? Mr. Rush, you disagree with that?
    Mr. Rush. Again, I want to reiterate that I don't think 
that this is an either/or, and I think that we need--
    Mr. Duffy. Oh, it is about money, though, Mr. Rush. It is 
about money.
    Mr. Rush. It is.
    Mr. Duffy. What happened to resources? And if we are 
looking for resources, why don't we spend it on our homeless 
first, our people first? There's a lot of money there. Let's 
use it for the right purposes.
    I yield back.
    Chairwoman Waters. Thank you.
    Since we are talking about money, the Chair takes the 
opportunity to say that the Trump tax plan added $1.5 trillion 
to the debt. And in the last 11 months, we added $1 trillion to 
the debt.
    Mr. Duffy. That is because the--
    Chairwoman Waters. If we are going to talk about money, 
let's talk about the leadership that--
    Mr. Duffy. More money comes in the Federal coffers, Madam 
Chairwoman. More money comes in with the tax reform.
    Chairwoman Waters. The gentlewoman from North Carolina, Ms. 
Adams, is recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chairwoman. And thank you for 
convening this important conversation on eliminating 
homelessness. It is a serious problem and a serious problem in 
my district in North Carolina, Mecklenburg County, where more 
than 9,000 people experience homelessness on a single night.
    I am concerned about the transitional housing services. In 
my district, countless transitional sites that provide 
necessary supportive services for residents combating 
addiction, opioid use disorder, and other chemical dependencies 
have seen significant reductions or outright elimination of 
funding.
    And just last week, the CEO of the first licensed 
transitional housing facility of its kind in North Carolina, 
maybe even in the country, reached out to my office for 
assistance. They have been in the Charlotte community for 
decades serving nearly 300 individuals. And they recently found 
out that HUD will no longer provide Federal resources because 
it is not a permanent housing facility. And I am troubled by 
the shift.
    I want to ask Ms. Oliva and Dr. Lucas, having said that, 
should Congress analyze and reassess HUD's shift away from 
providing resources for transitional housing in the continuum 
of care?
    Ms. Oliva. Thank you for that question.
    And, I would say that a lot of evidence points to, and a 
lot of transitional housing programs operate in ways that are 
high barrier and that are highly expensive. And with the budget 
the way that it is, especially with the continuum of care 
program where a large percentage of the funding in each year 
goes to renewal of projects that are already existing rather 
than new projects, it is really up to communities to prioritize 
which projects are most effective, which projects are--should 
be not necessarily eliminated but put lower on the list. And 
HUD does fund based on a prioritized list that is provided by 
each community.
    But the movement away from transitional housing and towards 
supportive housing and rapid rehousing is really about the 
evidence and the costs related to those kinds of interventions 
to ensure that, again, Federal funding is being used in the 
most effective way possible nationwide.
    Ms. Adams. Thank you.
    Briefly, please. I have another question.
    Go ahead.
    Mr. Lucas. I will just briefly note that--so the closest 
substitute to transitional housing in a sense of being a 
shorter-term solution is rapid rehousing. And in the available 
evidence that we have, there actually isn't, in terms of 
housing retention, rapid rehousing. There is even less evidence 
on terms of effectiveness relative to permanent supportive, so 
it is an issue.
    Ms. Adams. Thank you.
    To Mr. Stewart and Ms. Darley, in terms of the importance 
of destigmatizing the issue of homelessness particularly as it 
relates to our veterans, despite the overall reduction of 
veteran homelessness nationwide, the lack of housing for 
veterans continue to be a major issue in my district in North 
Carolina which is undergoing rapid gentrification. Based on the 
work that your organization has done to provide technical 
assistance to local providers, what would you say are some of 
the ongoing barriers to achieving an end to homelessness among 
veterans?
    Mr. Stewart?
    Mr. Stewart. Yes. Absolutely, Congresswoman. Thank you for 
the question.
    Just quickly, my brain is still on your stigma comment, and 
I would love to address that.
    One of the things that I think sticks out in the public's 
mind about the image of the homeless veteran is sort of an 
older gentleman, usually a Vietnam veteran, on the street with 
a sign in the old BDUs. And while that population exists, that 
age of population exist, it is also important to recognize that 
newly entering veterans, post-9/11 veterans, are finding 
themselves at risk and homeless in increasing numbers every 
year, and a large section of that population are women 
veterans. So that is just something I want to put on the 
record.
    As far as barriers go, there were a number of barriers. 
Affordable housing is an obvious one. The coordination of 
resources proves to be difficult. We had to do a lot of 
changing and growing as a field, even in the VA-funded side of 
things. We are talking about transitional housing, VA-funded 
transitional housing called the Grant Per Diem Program had some 
growing pains to go through as well. We found a pretty happy 
medium there now, and it is part--the smart limited use, the 
veteran-centric use of transitional housing is part of the 
Federal benchmarks and criteria.
    Ms. Adams. Thank you.
    I have 15 seconds. Ms. Darley, would you like to add to 
that?
    Ms. Darley. --part of a group that helps homeless veterans. 
We find that PTSD--I have run out of time, but--
    Ms. Adams. I apologize. I have cut you off.
    Madam Chairwoman says I am out of time.
    Thank you. I yield back.
    Chairwoman Waters. Thank you.
    The gentleman from Wisconsin, Mr. Steil, is recognized for 
5 minutes.
    Mr. Steil. Thank you.
    I want to start by thanking Chairwoman Waters for calling 
today's hearing. Homelessness is a serious problem affecting 
every community in our country. In Wisconsin, by a HUD 
analysis, we have 5,000 people who are homeless. By the 
Department of Education's definition, 18,000 youth are 
homeless.
    But despite the Federal Government's sustained and 
significant investment, homelessness persists at unacceptable 
levels. I have visited homeless shelters throughout southeast 
Wisconsin, the HALO Center in Racine or the Shalom Center in 
Kenosha, and I have seen firsthand the importance of having a 
local approach to addressing the homelessness problem.
    I had the opportunity to meet a young gentleman at the 
Shalom Center in the City of Kenosha. And he had arrived there, 
fallen on hard times, and had been given the opportunity for a 
job at an Amazon distribution center, a step to get back up on 
his feet. And that local involvement was critical. It was a 
local solution that was one of the driving forces for this 
individual to get back up on his feet, albeit making sure that 
we have that first step to make sure he had that private-public 
partnership at the Shalom Center to get there, in particular.
    Dr. Lucas, some of the proposals that we are discussing 
here today involve a significant increase in money that we 
would spend to address homelessness. We all agree homelessness 
is a big problem. We should do everything we can to ensure that 
all Americans have a safe place to live. At the same time, we 
need to spend taxpayer funds wisely getting at the best impact 
we can for every dollar. I believe there should also be a look 
at whether existing rules, regulations, and practices may cause 
or exacerbate the problems.
    I heard from my colleague from New York earlier on the 
particular high cost of housing in New York City. And it would 
be amiss to not look at maybe what some of the local housing 
policies are in certain cities that may be driving those higher 
costs and having a disparate impact on individuals from those 
communities that are subject to their own local control and 
regulations that may be having that negative impact.
    Could you comment on what policies or reforms or new 
flexibilities may help communities better address this 
situation?
    Mr. Lucas. Thank you, Congressman, for your question.
    Certainly, as you suggested, when we are talking about land 
use regulations, they come in many forms, right? It is not one 
blanket thing. But a lot of it requires what you are allowed to 
use property for. That can include development, but it also 
could include the renovation or the repurposing of existing 
properties.
    So it was mentioned, in New York City, there is a high rate 
of vacant units. In Syracuse, New York, where I live, there are 
1,500 vacant housing units and a comparable number of people in 
the homeless shelter system, actually.
    And so, questions emerge. What are the opportunities? What 
are the barriers that make it more expensive to expand 
affordable housing which, in some ways, will price out the 
development of additional units that are of a lower cost? And 
other regulations about what you can and can't use property for 
certainly affect that responsiveness of the supply in local 
communities.
    Mr. Steil. Thank you very much.
    Ms. Roman, in your testimony you highlight some of the 
differences between rural and urban homelessness. And my 
district in southeast Wisconsin and the Cities of Janesville 
and Racine and Kenosha, we have cities, and then there are also 
rural areas in between and across a lot of the State of 
Wisconsin.
    Do you think the local leaders have the flexibility they 
need to address some of the challenges in particular in rural 
areas?
    Ms. Roman. I would say, actually, while I think the 
continuum of care works very well in urban areas, there are 
some improvements that could be made in rural areas, that the 
urban areas have the full infrastructure, the sort of soups-to-
nuts programs. It doesn't make sense to build something like 
that in every single town.
    And I think there have been several proposals to fix the 
continuum of care to work better in rural areas, but I think 
rural areas need some more flexibility in terms of resources to 
probably house people a lot faster and kind of skip these long 
periods in the homeless system. There also tends to be a little 
bit more affordable housing in a lot of rural areas.
    Mr. Steil. Thank you.
    I think it highlights the importance of some of the local 
control and local decisionmaking that is required to address 
this problem.
    I would like to ask you one more question. You have 
highlighted some of the relationship between homelessness and 
human trafficking. In southeast Wisconsin, there is an 
Interstate 94 corridor running between Milwaukee and Chicago. 
Human trafficking is a really significant issue in that area.
    Could you just comment, in the seconds that we have, on 
that relationship?
    Ms. Roman. Just--
    Mr. Steil. Maybe we will follow up in--
    Ms. Roman. As Ms. Darley has said, not having housing 
certainly makes people vulnerable to being trafficked.
    Mr. Steil. Thank you very much. I yield back.
    Chairwoman Waters. The gentleman's time has expired.
    The gentleman from Illinois, Mr. Casten, is recognized for 
5 minutes.
    Mr. Casten. Thank you, Madam Chairwoman.
    My question is for Ms. Oliva.
    During the recent shutdown, I met with a number of service 
providers who are at risk of not being able to provide their 
services if the government didn't reopen. And one of the women 
I met with was the director of a local YMCA that provided both 
temporary housing and the domestic violence hotline. And she 
described, in rather heartbreaking fashion, how they are at an 
annualized all-time high for incoming calls to their domestic 
violence hotline, which she attributed to the Supreme Court 
hearings, that that was when they saw the last uptick come last 
July. And she also noted, in rather clinical fashion, that the 
lethality of domestic assault is on the rise.
    To put it very bluntly, we don't get a second chance to 
help a lot of people when they have the courage to stand up the 
first time. And what I am hoping you could comment on in your 
role in supportive housing is, what more can we do for these 
communities where housing security is inseparable from personal 
security and the house they are in is no longer safe? Is there 
more we can be doing on a Federal front on that front?
    Ms. Oliva. Right.
    So the most important thing that we do is that, in the 
definition of homelessness, there is a whole category of folks 
who are survivors of domestic violence, and they have different 
standards to get into programs. For example, they don't have to 
provide the types of documentation, because usually somebody 
fleeing a domestic violence situation doesn't have that 
documentation with them. So ensuring access to a variety of 
systems is incredibly important.
    We also need to make sure that public housing authorities 
and other affordable housing developers understand, when 
domestic violence happens within one of their programs or 
within one of their buildings, how to address that situation 
without further harming the survivor of domestic violence.
    And then I would say that the other really important thing 
to do is to ensure that all of the different types of 
interventions that we talked about, shelter, emergency, safe 
shelter, rapid rehousing, supportive housing, are available to 
survivors of domestic violence in different ways and that the 
services are appropriate for that particular population.
    Mr. Casten. Thank you.
    My next question is for Mr. Rush.
    The University of Chicago recently released a report on 
youth homelessness, I think it was called,``Missed 
Opportunities,'' that found that the LGBTQ community, 
particularly young adults, has a 120 percent higher risk of 
reporting homelessness compared with youth who identify as 
heterosexual and cisgender.
    Can you help us understand some of the unique needs of 
LGBTQ youth who are experiencing homelessness, what programs 
exist, and what we can do particularly but not exclusively at a 
Federal level to make sure that we get that community the 
protection it needs?
    Mr. Rush. Sure. And I actually referenced that report in my 
initial testimony.
    I think that one thing that it does a really good job of is 
it doesn't just talk about people being kicked out of their 
homes because of their LGBTQ. I think that is one part and one 
facet of it. I think LGBTQ individuals, yes, they have to deal 
with transphobia, homophobia, and all of those other things. 
But when we talk about intersectionality, a Black LGBTQ 
individual or Latino or Latina individual has to deal with the 
intersections of race and their being LGBTQ.
    And I think that LGBTQ individuals experience housing 
instability just like everyone else. They have issues with 
finding affordable housing, just like everyone else.
    I can't think of anything specifically on the Federal level 
as it pertains to HUD that implements programs specifically for 
LGBTQ individuals. I do know that there--the Youth Homelessness 
Demonstration Project, which has an approach of leaning on 
youth who have formally experienced homelessness, a lot of 
individuals in that are LGBTQ. They work with continuums of 
care to be able to come up with a strategy to prevent and end 
youth homelessness in their locality, and that does have a plan 
generally to focus on addressing homelessness among LGBTQ 
individuals. But I do think that there needs to be a further 
investment on the Federal end to target resources just like 
targeted resources are provided to veterans and families, that 
there needs to be the same for LGBTQ individuals.
    Mr. Casten. Thank you. I yield back the balance of my time.
    Chairwoman Waters. Thank you.
    The gentleman from Arkansas, Mr. Hill, is recognized for 5 
minutes.
    Mr. Hill. Thank you, Chairwoman Waters. I appreciate you 
calling this hearing. I appreciate the opportunity to hear from 
this excellent panel. Thanks for your fortitude in sitting 
still for this long. We appreciate your expertise.
    I would like to start by talking a little bit about the 
robust efforts in Little Rock to combat homelessness. It is 
very well-coordinated, and it has a robust engagement with both 
the City and Federal resources and our nonprofits. And, really, 
in the two terms I have served in Congress, I found it very 
rewarding to see their work where they have an active case work 
in our office. We go and find veterans where they are. We have 
solved so many veteran challenges in our homeless shelters. It 
has been really rewarding work in our office. I have four 
veterans on my constituent team; three of them are combat 
veterans. And they spend time in our shelters really helping 
our vets. They deserve that extra touch. And many of them are 
really lost in the morass of not only homelessness but also the 
veteran programs that they might be eligible for. So I thank my 
staff for that work.
    And we have been a vigorous advocate for funding. Just in 
the last 4 years, we have gotten $4 million in grant funding 
for our homeless nonprofits in Little Rock. And they are using 
that money very wisely. And I have been so impressed by--from 
just really taking care of that emergency transient housing, 
the person who loses their lease, that family in crisis, that--
or troubling chronic alcohol and drug-addicted population. And 
then those who are really working their way back to self-
sufficiency. All that group works really well together, and 
that is why I invited Ben Carson to Little Rock to see this 
work on the ground and see what is happening. And he was really 
inspired by that work.
    And we have one of our nonprofits, Our House, which Dr. 
Carson really encouraged that they would be a terrific person 
to lead the EnVision Centers in our public housing that has 
been an initiative of HUD. And so I hope to see that move 
forward.
    But in all the aspects of it, whether it is The Dorcas 
House, Union Rescue Mission, St. Francis House, Jericho Way, 
Salvation Army, Gaines, Lucy's Place, Women and Children First, 
all these I have been impressed, as a former business person, 
to see how well they work together looking for that gap and 
filling it to help all those suffering from this homelessness.
    I have a couple of questions. One, I heard Mr. Lawson 
mention it; my friend from Wisconsin mentioned this issue of 
definitions. We have all these definitions that are different 
on homelessness. And it has allowed, I think, the Federal 
Government to make claims to ending homelessness, with which I 
don't agree. We had a celebration with a mayor of Little Rock, 
went up to an event this fall ending veterans homelessness, and 
I am going: Man, I can take you and introduce to some right now 
that are homeless.
    So how do we get HUD and the VA on the same page about the 
definition of who is homeless? Does anybody want to talk about 
that?
    Ms. Oliva, you worked at HUD, so we have these multiple 
definitions of homelessness. Is living in a hotel homeless?
    Ms. Oliva. It depends.
    Mr. Hill. Well, it really doesn't. If they are in a hotel 
for longer than a month, are they homeless?
    Ms. Oliva. So I would say that there is--again, there is a 
need because of the resources that are available to prioritize 
folks that are most vulnerable first for the housing resources 
that are available.
    So I don't think that HUD and the VA were on the same page 
around--and Mr. Stewart might be able to address this based on 
something more recent. But our work with the VA, our 
collaborative work with the VA and USICH around veteran 
homelessness in particular was some of the best work that we 
did inside of the Federal Government, as far as I am concerned, 
because we were on the same page. We ensured that we were 
prioritizing chronically homeless veterans for the HUD-VASH 
program, for example.
    And until no veteran was on the street, then we could start 
working down the list. And homelessness prevention is a part of 
those programs that could work with folks who are in hotels.
    Mr. Hill. Right. And they do great work in that.
    Ms. Roman, talk to me about--for the vouchers that we have 
in Section 8, how do we make sure that they really are clean 
and safe places, that our public housing authorities are really 
putting those vouchers out where they should be?
    Ms. Roman. I am not an expert on Section 8, but my 
understanding is that they do inspections on Section 8 units. 
And, they are supposed to be clean and safe.
    I think in the homeless arena, we don't always have those 
kinds of inspections, and you do have to be concerned about the 
quality.
    Chairwoman Waters. The gentleman's time has expired.
    The gentlewoman from Pennsylvania, Ms. Dean, is recognized 
for 5 minutes.
    Ms. Dean. Thank you, Chairwoman Waters. And I want to thank 
you, like the others, for your commitment to ending 
homelessness. It is, I think, something in which government has 
an extraordinarily important role to play. We can do it if we 
just put our will and our resources toward it and if we think 
in very innovative ways.
    I want to thank you, Ms. Darley, also for telling us right 
up front that homelessness doesn't discriminate, and housing 
must be first. And I am going to use your quote, if you don't 
mind, that the opposite of wealth is poverty and the opposite 
of poverty is justice, because that is what we are here to do. 
So I am inspired by your words, and we can use that to end 
homelessness.
    Two areas that I wanted to look at have to do with the 
barriers to identifying those who are homeless and actually 
successfully getting them out of homelessness. I was a State 
representative in Pennsylvania before coming here to Congress. 
We dealt with homelessness in my district. I worry about the 
data. I will just say this as a statement not as a question, 
but I do worry about the data. I am sure all of you do too.
    We did point-in-time counts in the middle of the night and 
we know that it doesn't account for everybody. We know there 
are people who are on a cousin's couch or sleeping in a car in 
a parking lot where we are not aware, and so many other things. 
So I worry about the data and are we actually capturing the 
number of people who are homeless. And if we can't fully 
capture it, how can we ever fully solve it? So that is more of 
a statement.
    The two areas that I wanted to talk about have to do with 
barriers to helping those who fall into homelessness and they 
have a connection to domestic violence or they have a 
connection to addiction. In our City of Philadelphia, as I 
crisscross the City and I am racing about, I am so struck and 
so sometimes paralyzed by the number of people who are homeless 
standing on the street begging for a crumb, a dime, a dollar. 
And that they are in the ravages of addiction.
    So I would like to know, what are some of the clear 
barriers to homeless folks who are suffering from the disease 
of addiction and how can we break down those barriers, number 
one? And then the other one, and so I will open this--I am 
certain Ms. Oliva would be one, but others I am certain, Ms. 
Roman and others, would help me.
    We talked about domestic violence, and in 2017, in 
Pennsylvania, 117 Pennsylvanians lost their lives to domestic 
violence: in 2017 alone. The majority of them were women killed 
with a firearm. In the past 10 years, more than 1,600 
Pennsylvanians lost their lives as a result of domestic 
violence. So what are the obstacles for women in particular 
fleeing domestic violence situations? How can we serve those 
victims of domestic violence?
    There is this terrible intersection between domestic 
violence and homicide when there is a weapon present, and how 
does homelessness actually increase the risk of domestic 
violence? So I apologize for balling all of that together, but 
maybe I will start with you, Ms. Roman.
    Ms. Roman. I will just talk about the addiction issue. I 
would just say two things about that. One, we just looked at a 
bunch of data on unsheltered people, people living outside from 
around the country, actually 30,000 records. And one of the big 
barriers to them going in or getting help is because the high 
barriers in the shelter system. So an initial thing is the 
shelter systems have to really be welcoming to people and not 
screen out people because of their substance use.
    And the second thing is that treatment is only available--I 
think the national average is half the time, only in 50 percent 
of cases in which somebody is ready for treatment can they 
actually access treatment. So that is a second piece of that.
    Ms. Dean. Thank you.
    Ms. Oliva. And I would agree with both of those things that 
Nan just said, specifically on people with substance use 
disorders. We don't have enough for outreach and we need the 
right kind of outreach to get folks into shelter, and we need 
more recovery housing to help folks who have those kinds of 
substance use disorders.
    On the domestic violence side, technology has made it less 
safe for programs that have physical shelters. Now you can go 
on Google maps and you can identify somebody's car that is 
sitting in front of a shelter. So the domestic violence, you 
know, sort of group of folks who are working on domestic 
violence issues nationwide really need to implement new 
technologies and be innovative. They also have to really work 
between the domestic violence system and the affordable housing 
system and the homeless system. And that can be done, and it is 
being worked on.
    Ms. Dean. I thank you very much.
    And I also want to talk about the problem of qualifying as 
homeless. In my own county of Montgomery County, Pennsylvania, 
we have a system that we call into called, ``Your Way Home.'' I 
sat on the phone with somebody who was struggling and going to 
be homeless. It was a 60-minute call, and they didn't qualify 
because their eviction was maybe 2 days away. So I just raise 
that. Thank you.
    Thank you, Madam Chairwoman.
    Chairwoman Waters. The gentlewoman's time has expired.
    The gentleman from Ohio, Mr. Stivers, is recognized for 5 
minutes.
    Mr. Stivers. Thank you, Madam Chairwoman. I want to thank 
you for holding this hearing, and I want to thank you for your 
leadership on fighting homelessness.
    And now to the witnesses, I want--Ms. Oliva, I want to do a 
follow-up on a question that Mr. Hill asked a little while ago, 
and I am going to do it as a simple yes-or-no question. Are you 
aware that the Housing and Urban Development definition of 
homelessness excludes people under the age of 18, while the 
Department of Education does count homeless folks under the age 
of 18?
    Ms. Oliva. I don't believe that is correct.
    Mr. Stivers. It is true, sorry. It is true.
    Mr. Rush, since you are the only one who has actually 
mentioned youth homelessness, I would like to ask you about 
something. Just yesterday, the Department of Education released 
a report on youth homelessness that showed that homeless youth 
have actually increased, and, in fact, in 20 States, that 
homeless youth growth has been 10 percent over the last 3 
years. So, obviously, schools identify these folks because they 
are at risk, and so there is a good reason for them to count 
them, but the Housing and Urban Development definition of 
homelessness actually excludes those folks from getting 
shelter.
    Mr. Rush, don't you think those are among some of the most 
vulnerable people who could be homeless?
    Mr. Rush. I do think that they are--there is a risk of 
experiencing homelessness, and I think that the HUD-funded 
programs may or may not be the best solution to address those 
problems.
    Mr. Stivers. But shouldn't we be counting them?
    Mr. Rush. I am a believer that additional data is needed, 
yes, specifically as it pertains to most impacted populations, 
yes.
    Mr. Stivers. And these are potentially some of the most 
vulnerable population out there. So I have had a bill for the 
last three Congresses to force Housing and Urban Development to 
change that policy to count homelessness under the age of 18. 
And it is a bipartisan bill. We are continuing to work on it. 
We worked with the chairman on it last cycle. Mrs. Beatty and I 
are the lead sponsors of that bill. We are going to keep 
fighting for that, and I hope all of you will pay attention to 
that. And I really appreciate everything all of you are doing, 
but it is a very important issue to the future of our country 
and to a lot of young folks who are very, very vulnerable.
    The second issue that I have been focused on is veteran 
homelessness. And, Mr. Stewart, I do appreciate that your 
testimony focused on the other than honorable discharges. As a 
military veteran myself, these are the folks who are most 
likely to be homeless. They are also most likely to have other 
conditions that aggravate that, whether it is drug addiction, 
mental health, or physical health issues.
    And you talked about a change last year in the 114th 
Congress that allows the VA to serve part of that other than 
honorable population, but can you describe to us, because my 
understanding is that there are still a bunch of people who are 
left out who are not eligible even under that expansion?
    Mr. Stewart. That is exactly right, Congressman. What the 
previous bill, PL 114-315, did was make veterans with other 
than honorable discharges eligible for VA homeless services to 
include grant and per diem supportive services and the like. 
But it does not include eligibility for HUD-VASH. Your bill and 
Mrs. Beatty's bill would do such a thing.
    Mr. Stivers. Correct.
    Mr. Stewart. So it is the same group of people for slightly 
different services.
    Mr. Stivers. Great. And I think the goal is to make sure 
that even when somebody had a mistake that ended their service, 
that doesn't mean they should be sentenced to be homeless for 
the rest of their life.
    Mr. Stewart. That is exactly right, sir. These are 
veterans, these men and women are veterans, and they deserve to 
not be left behind.
    Mr. Stivers. Thank you. And I appreciate that.
    Mr. Lucas, you talked a little bit about, with your 
perspective as an economist, what is going on in multifamily 
housing. And I am interested in your thoughts of what is going 
on with the Americans with Disabilities Act and the Fair 
Housing Act with regard to some frivolous lawsuits that, 
frankly, aren't even causing technical fixes, they are just 
getting money. And is that having any impact on cost of 
housing? Is it ultimately resulting in tenants paying higher 
rent? Is it exacerbating a lot of these conditions?
    Mr. Lucas. That is something I will have to follow up on 
with you, and I would be happy to do so.
    Mr. Stivers. Thank you.
    Madam Chairwoman, again, I really appreciate you holding 
this hearing. Homelessness in America is something we all 
should care about. It is a bipartisan issue, and we want to 
work with you to try to find solutions.
    I yield back the balance of my time.
    Chairwoman Waters. Thank you very much.
    The gentleman from Utah, Mr. McAdams, is recognized for 5 
minutes.
    Mr. McAdams. Thank you, Madam Chairwoman.
    And it is great to see those of you with whom I have worked 
in the past, in my previous capacity. But Salt Lake County, 
like many urban areas, has struggled to understand and address 
homeless challenges, and we have made progress in many areas 
and still struggle, like all metro areas struggle, in other 
areas.
    Our area has largely recovered from the economic hardships 
largely of the Great Recession and other factors, though, like 
the opioid epidemic, have meant that thousands of Utahans live 
on the streets without a safe or a stable place to call home. 
Many of these families with children are homeless youth, and it 
is unacceptable that the only home for a young child sometimes 
is the family car or a homeless shelter, or a teenager is 
forced to couch surf with friends and relatives, many of them 
aging out of the foster care system, while trying to make their 
way through school or to train for a job.
    So when I was the mayor of Salt Lake County, I convened a 
broad group of stakeholders who in one way or another are a 
part of our homeless service system, whether they are 
government, city, county, State, supporters of the homeless 
services system, the businesses and nonprofits, philanthropic 
supporters, the medical system, education leaders, homeless 
services providers. And we worked closely with other political 
leaders, our lieutenant governor, our Speaker of the House, 
Republicans and Democrats working together to try and move 
forward solutions.
    And for nearly 3 years, we mapped what we called the genome 
of our local homeless services system. We looked at every 
aspect of how, when, where, and with what resources our 
homeless services system interfaced with individuals who were 
experiencing homelessness and what we might do to help to 
resolve the situation. And that plan we developed through that 
process identified specific outcomes and indicators by which we 
would measure the results of whether we were making progress 
towards our goals of minimizing homelessness.
    We contracted with mental health providers and transitional 
housing agencies for two pay-for success projects, data-driven 
and evidence-based contracts funded by the private sector who 
would only be repaid if participants in the program achieved 
success. And our coalition, what we were moving to is more of 
a--rather than a one-size-fits-all solution, but more of a 
tailored, custom-tailored approach with wraparound services 
that we help to lift people out of homeless services and 
identify--I think if you have met one homeless person, you have 
met only one homeless person. Their situations and challenges 
differ from person to person, and recognizing that we need to 
meet them where they are and then help them to move forward and 
achieve a greater degree of independence, a greater degree of 
self-reliance. And those outcomes are going to differ from 
person to person.
    So I guess my question for the witnesses--thank you for the 
excellent written testimony and your work that I am very 
familiar with over many years. My question would be, and 
referencing Mr. Stewart and your written comments, you said 
that--and your comments that Housing First never means housing 
only. In Utah, we have experience with Housing First, and I 
think it has been successful, but we are also seeing that it is 
not housing only. We need other solutions.
    Later in the testimony, you go on to elaborate that the HUD 
and HUD-VASH program utilizes veteran-specific Section 8 
vouchers coupled with case management. So I guess my question 
is, how important has the case management piece been of that? 
What can we learn from that that we might extrapolate to other 
categories of homelessness? And then for all of the witnesses, 
what have we learned and what more can we do in the area of 
wraparound services?
    Mr. Stewart. I think the HUD part and the VASH part are 
each equally crucial. The Housing First approach works wonders 
when you get a person into housing and then wrap those services 
around them, offer them all the services that they may need. 
Even if they don't take it right away, studies have shown that 
they will eventually avail themselves of those services and 
resolve some of the issues.
    The case management support through the VA is critical. 
Making sure people meet medical appointments, seeking 
employment if able and willing, qualifying for income supports, 
broad base of issues and a real model for what we could be 
doing elsewhere.
    Ms. Oliva. And I think that model is incredibly important, 
because the VA--and the services don't have to be in the 
housing program. The housing subsidy can be by itself, and the 
services can be coming from mainstream resources like Medicaid 
or the VA or other mainstream services.
    Ms. Roman. Just briefly, the advantage we have on the 
veterans' side is we have a partner who delivers the services. 
HUD is not a particularly good service deliverer, so it would 
be good for the committee to work on finding a strong partner.
    Mr. Lucas. I would just add one thing--
    Chairwoman Waters. The gentleman's time has expired.
    Mr. Lucas. Thank you, Madam Chairwoman.
    Chairwoman Waters. The gentleman from Illinois, Mr. Garcia, 
is recognized for 5 minutes.
    Mr. Garcia of Illinois. Thank you very much, Madam 
Chairwoman. To all of the panelists who are here, thank you so 
much for giving us a much better sense of the homelessness 
challenge that we face as a Nation.
    Most of you emphasize the racial disparities that exist in 
the homeless population across the country, and I want to 
highlight an important segment of this. Latinos, while 
comprising about 18 percent of the population nationally, 
comprise about 22 percent of people experiencing homelessness. 
So--and I think, Ms. Roman, in your testimony, if I heard you 
correctly, you stated that Latinos are increasingly 
experiencing homelessness disproportionately. Can you elaborate 
on what might be driving this new trend that is being felt 
acutely in Latino communities in particular?
    Ms. Roman. I will tell you the truth, I am not certain what 
is driving it. The Hispanic and Latinx percentage of homeless 
people has been--it has been disproportionately low in the 
past, and it is something that has changed. I think we always 
hypothesized that people were more willing to share housing, 
and the situation there may have changed. I don't think we have 
data on why that is changing, that I know of.
    Mr. Garcia of Illinois. How might we get a better sense of 
that? What kind of information should we be--
    Ms. Roman. I think it would be good to ask HUD to actually 
look into that. It is probably qualitative kind of information 
we need to get and looking at the types of households that are 
accessing the shelter system and so forth. It may have also 
been that people were just averse to using the shelter system, 
and for some reason that is becoming a more common thing. I 
honestly don't--it is a great question. I wish I knew the 
answer to it.
    Mr. Garcia of Illinois. Okay. Well, thank you for your 
candor.
    A second question to Ms. Roman, over 64,000 people in 
Chicago are estimated to be doubling up, and there are huge 
disparities among this category of people as well: 
approximately 55 percent African American; and 33 percent 
Latino. Can you explain the challenges of the so-called 
doubling up that community faces and why the data is not 
reflected in some of the HUD estimates that were discussed 
today?
    Ms. Roman. The HUD data on homelessness is not perfect. The 
point-in-time count does not look at doubled-up households 
because it would essentially have to do a census, which it 
can't do. So in the HUD definition, if a household is doubled 
up but imminently the second people have to leave, they are 
homeless, but they don't necessarily get counted. There are 
also a lot of doubled-up families who are doubled up trying to 
not be homeless, not to enter the shelter system, to stay out 
of homelessness, and there has to be a little bit of a line 
somewhere there, and exactly where you draw it, we might 
disagree on. But some people are stably housed in sharing 
housing and some people aren't and really are homeless.
    Mr. Garcia of Illinois. Thank you very much.
    Madam Chairwoman, I have in my booklet a report from the 
Chicago Coalition for the Homeless, and I would ask if this can 
be submitted as a part of the record for the purposes of 
sharing this with people who are following the hearing today.
    Chairwoman Waters. Without objection, it is so ordered.
    Mr. Garcia of Illinois. Thank you, Madam Chairwoman.
    Chairwoman Waters. The gentlewoman from Iowa, Mrs. Axne, is 
recognized for 5 minutes.
    Mrs. Axne. Thank you, Chairwoman Waters and Ranking Member 
McHenry, and to our distinguished panel for being here. I 
appreciate it.
    I would just like to start by mentioning that earlier in 
this hearing, my distinguished colleague, Mr. Rose, questioned 
the constitutionality of Congress to assist with housing of the 
homeless. I would state the opposite. Article I, Section 8 of 
the Constitution grants Congress the power to lay and collect 
taxes, duties, imposts, and excises, to pay the debts and 
provide for the common defense and general welfare of the 
United States. By and large it is for Congress to determine 
what constitutes the general welfare, and I would say that 
adequate housing benefits are general welfare.
    So on to my questions here. Earlier in the hearing, Ms. 
Oliva mentioned that there has been decreased Federal 
investment to address homelessness over the last several years. 
Further, according to the U.S. Department of Housing and Urban 
Development in 2018's Annual Homeless Assessment Report, 
homelessness increased for the second year in a row.
    So my question is to you, Dr. Lucas. In your paper, ``The 
Impact of Federal Homelessness Funding on Homelessness,'' you 
said on page 1, ``I find that funding increases the incidence 
of total homelessness.'' This is diametrically opposite to what 
the data suggests. So could you provide us with the evidence 
you have that supports your theory?
    Mr. Lucas. Sure. So that is actually just a statistical 
econometric finding and not a theory at all. The question that 
I asked in that paper was whether or not we could discern using 
econometric methods from a research standpoint, whether or not 
communities that get more Federal funding through the CoC and 
ESG grants had lower rates of unsheltered homelessness or of 
total homelessness. And typically, and the result that I found 
using the methods that allow me to identify actually a causal 
affect rather than just a correlation, was that communities 
that got more funding had higher rates of homelessness as 
counted by the point-in-time counts.
    Mrs. Axne. Can you give me an example of that?
    Mr. Lucas. A big portion of that result is driven through 
the sheltered population, in part because Federal funding has 
allowed communities to expand their shelter supply.
    Mrs. Axne. I appreciate that. Would you be able to cite a 
specific example, a city, a location? As you mentioned, you 
went through the formula, and that is what your evidence found. 
So what would be a specific exact location where you saw this 
happen?
    Mr. Lucas. Well, New York City is a place that has 
significant Federal and City level funding for the shelter 
system. It is a bit of a unique system, but that is an area 
that has seen increases over time, not just at a single point 
in time in sheltered homelessness over this period, despite 
increases in funding on the--over time.
    Mrs. Axne. Okay. So you are suggesting that your theory 
says that the increase in support of helping our homeless 
population in New York has increased the homeless population in 
New York?
    Mr. Lucas. What I have--it is not a theory at all, again, 
it is just a finding of a statistical relationship over all 
communities at a given point in time. And certainly, it has 
been the case that we have seen over time in the aggregate at 
the national level reductions in homelessness, according to our 
point-in-time counts. But the evidence that we have suggests 
that the role of funding that is being targeted to, especially, 
for example, permanent supportive housing units, has had a 
relatively small effect at reducing those homeless population 
numbers, so there may be other reasons.
    Mrs. Axne. Okay. You also suggested that local community 
involvement and support is key, and I obviously would agree 
that we need to have multiple avenues to help us address this 
issue. And I am from Iowa. A lot of people wouldn't think we 
have a major homeless issue there. I represent one of the 
biggest metro areas, and we actually do.
    I am very involved with our Catholic charities, our Saint 
Joseph's Family Shelter, our Hope Ministries. I also contribute 
to those organizations. And we have a very serious issue with 
our police force as well. We are understaffed and they are 
consistently helping out with our homeless population.
    So as much as I would agree that we need to make sure that 
we have a systemic approach to homelessness, how would you 
address those police officers who say that--when you tell them 
that we need to remove aspects of the homeless safety net?
    Mr. Lucas. I think I would have to get back to you on that 
question. I thank you for your involvement with this issue.
    Mrs. Axne. Thank you.
    Chairwoman Waters. The gentlewoman's time has expired.
    The Chair wishes to advise Members that Floor votes have 
been called. We do have another hearing at 2 p.m., so I am so 
pleased that we had such robust attendance today. And to all 
Members who did not get the opportunity to ask questions, you 
will get the first priority at the next Full Committee hearing 
on housing. I don't want you to miss three votes plus a moment 
of silence.
    So I would like to thank our witnesses for your testimony 
today. We are not going to attempt to hold you over for another 
hour while we go vote these three votes on the Floor.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    I thank you so much. And this hearing is adjourned.
    [Whereupon, at 1:26 p.m., the hearing was adjourned.]

                            A P P E N D I X



                           February 13, 2019
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           

</pre></body></html>
